<html>
<title> - H.R. 1230, TO ESTABLISH THE DETROIT RIVER INTERNATIONAL WILDLIFE REFUGE IN THE STATE OF MICHIGAN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 1230, TO ESTABLISH THE DETROIT RIVER INTERNATIONAL WILDLIFE 
                    REFUGE IN THE STATE OF MICHIGAN

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 21, 2001
                               __________

                           Serial No. 107-44
                               __________

           Printed for the use of the Committee on Resources






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                    U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                






       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                








                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 21, 2001....................................     1

Statement of Members:
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................     2
        Prepared statement of....................................     8
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     1
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Prepared statement of........................     5
    Underwood, Hon. Robert, a Delegate to Congress from Guam, 
      Prepared statement of......................................     5

Statement of Witnesses:
    Ashe, Daniel M., Chief, National Wildlife Refuge System, U.S. 
      Department of the Interior.................................    10
        Prepared statement of....................................    13
    Guyer, Dr. Gordon, Chairman of the Board, Pheasants Forever, 
      Prepared statement of......................................    35
        Letter submitted for the record..........................    35
    Hartig, Dr. John, Detroit River Navigator, Greater Detroit 
      American Heritage River Initiative.........................    15
        Prepared statement of....................................    17
    Jakcsy, John, Regional Manager of Community Relations and 
      Communications, Great Lakes Operations, National Steel 
      Corporation................................................    19
        Prepared statement of....................................    20
    Nomsen, Dave, Vice President of Government Affairs, Pheasants 
      Forever....................................................    34
    Taylor, Helen, State Director, Michigan Chapter, The Nature 
      Conservancy................................................    21
        Prepared statement of....................................    23
    Tori, Gildo M., State and Federal Coordinator, Ducks 
      Unlimited, Inc.............................................    28
        Prepared statement of....................................    29

Additional materials supplied:
    Bagale, Edward J., Vice Chancellor for Government Relations, 
      The University of Michigan-Dearborn, Statement submitted 
      for the record.............................................    46
    Cool, K.L., Director, Department of Natural Resources, 
      Lansing, Michigan, Letter submitted for the record.........    49
    Engler, Hon. John, Governor, State of Michigan, Letter 
      submitted for the record...................................    50
    Front, Alan, Senior Vice President, The Trust for Public 
      Land, Statement submitted for the record...................    47
    Goodheart, Jim, Executive Director, Michigan United 
      Conservation Clubs, Memorandum submitted for the record....    51
    Map of Lower Detroit River Ecosystem.........................    52
    Stroh, Peter W., Chairman, Greater Detroit American Heritage 
      River Initiative, Letter submitted for the record..........    53
    Whelan, Susan, Member of Parliament, Essex, House of Commons, 
      Ottawa, Canada, Letter submitted for the record............    55








H.R. 1230, TO ESTABLISH THE DETROIT RIVER INTERNATIONAL WILDLIFE REFUGE 
                        IN THE STATE OF MICHIGAN

                              ----------                              


                        Thursday, June 21, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. Good morning, everyone. The hearing of the 
Fish, Wildlife, and Oceans Subcommittee will come to order.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of <plus-minus>The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife And Oceans

    Good morning, I am pleased to convene this hearing and I compliment 
the Dean of the House of Representatives, the Honorable John Dingell 
for introducing the Detroit River International Wildlife Refuge 
Establishment Act. This innovative proposal would create the first ever 
international wildlife refuge.
    The Detroit River was formed over 14,000 years ago and it is an 
international waterway that flows through a metropolitan region of over 
five million people. Sadly, the overwhelmingly majority of its wetlands 
have been lost to development.
    Nevertheless, the Detroit River has one of the highest diversities 
of fish and wildlife in all of the Great Lakes. There are more than 29 
species of waterfowl and 65 different kinds of fish found there. In 
addition, it was designated as an American Heritage River in 1998 and 
is pending similar recognition in Canada.
    H.R. 1230 has been co-sponsored by 24 members of the House and it 
has been endorsed by a diverse group of elected officials and various 
organizations including Ducks Unlimited, Michigan United Conservation 
Clubs, Pheasants Forever and the Nature Conservancy.
    I look forward to hearing more about this legislation, how this 
refuge designation will assist in the restoration of wetland habitat, 
the sources of funding to acquire the necessary Refuge lands and how 
section 7, the indemnification provisions will work. I am confident 
that our distinguished witnesses will address these issues in their 
testimony.
    I am now pleased to recognize the distinguished Ranking Minority 
Member for any opening statement he may have on this legislation.
                                 ______
                                 
    Mr. Gilchrest. Mr. Dingell, thank you very much for coming 
here this morning. We have read through some of the testimony 
that we will hear from the witnesses, and John, it sounds like 
an extraordinarily wonderful thing that you are embarking upon, 
to create this habitat corridor with connecting refuges in what 
once was a pristine, beautiful area of North America, and with 
your efforts and our help, a piece of that beautiful wildlife 
habitat can be restored.
    Mr. Dingell, I know you have been here in Congress for 
many, many years and your love for the outdoors and its 
resources is well known. What we want to do this morning is 
listen to you tell the story about this idea, and with 
collective cooperation from this great body, the U.S. House of 
Representatives, and our counterparts, who are not always so 
great, on the Senate side, we will make this happen.
    Welcome, Mr. Dingell.

STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, you make me feel very good with 
that opening statement. First of all, for the record, my name 
is John Dingell. I represent the Congressional district which 
borders this wonderful area, the east side. The river flows 
approximately north and south. I want to express my thanks to 
you for not only your kind statement, but for convening this 
hearing today, and I want to express my particular thanks to 
Mr. Underwood and to the Committee for your kindness to me.
    We in Michigan love the Detroit River and the Great Lakes 
like you in Maryland love that wonderful body of water, the 
Chesapeake, and we are concerned that we do the things that we 
can to save it and to preserve the values that are there. One 
of the remarkable things about this area is that the values are 
there, and I will address that in just a little bit.
    I would like to mention some of the people who are here 
with me this morning as witnesses, and with the approval of the 
chair, I would ask that they come forward to the witness table 
at this time, if that meets with your approval, Mr. Chairman.
    Mr. Gilchrest. Without objection, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I would be remiss if I didn't 
mention your extraordinary leadership in the area of 
conservation. All of us owe you a debt for the courage, the 
vision, the effort, and the energy which you have brought to 
this business of conservation and I want to express to you my 
personal gratitude for what it is that you have done.
    I would ask that Helen Taylor of the Nature Conservancy 
come forward; John Jakcsy of National Steel, about whom I will 
mention a little more in just a little bit; Dave Nomsen, who is 
here for Gordon Guyer of Pheasants Forever, one of the great 
national conservation organizations; Gildo Tori of Ducks 
Unlimited; and John Hartig, who is our River Navigator in the 
Heritage River which was set up by the administration. So we 
have here a rather remarkable panel and they are prepared to 
testify. I would note also that Dan Ashe is here, and one of my 
duck hunting friends, John Stinson on behalf of National Steel.
    Mr. Chairman, this is a wonderful area. When you go out 
there, you will find that there are enormous celery beds, 
tremendous habitat. Already, there is a national refuge, the 
Wyandotte Refuge, which is administered by the Shiawassee 
Refuge, which comprises about 300 acres on what is called 
Grassy and Mamajuda Island. Just recently, Mr. Jakcsy and the 
National Steel Company, with the help of Mr. Stinson and others 
in that very fine company, gave the Federal Government and the 
Fish and Wildlife Service about 20 more acres which is also 
prime duck habitat with some superb celery beds, which are 
extremely important to the more than three million ducks and 
geese which go north and south on this river every spring and 
fall.
    I would note that we have sought in every way possible to 
make the task of this Committee easy, because if you will note, 
there is no opposition to this legislation. You will also note, 
Mr. Chairman, that the Canadians are highly supportive, are 
working with us, both to create a Heritage River, and will 
begin their efforts to convert this into an international 
wildlife refuge, something which is of unique value.
    I would note that we have listened very carefully to the 
concerns of the members of this Committee and we do not allow 
compulsory process for the taking of land. Any land which would 
be acquired or interest in land which would be acquired would 
have to be done on a voluntary, free-will basis by the seller 
or donor or whatever it might happen to be.
    I would note to you that every newspaper in the area, 
including the Canadian papers, support this, the Detroit News 
Free Press and the Wyandotte News Herald, which publishes right 
in the middle of the picture which you see there. I would note 
that almost every government of every community in that area 
supports this proposal. That even includes the government of 
Grosse Ile, which is the island right in the middle of the 
river, which has great concerns and which has some rather 
remarkable habitat right there. Also, Riverview and Trenton, 
which are very much concerned with the preservation of small 
remaining bits of shoreline.
    I would observe to you, Mr. Chairman, that it is not 
necessary for there to be huge acquisitions of land or even any 
significant acquisitions of land because that land can be 
acquired either by procuring interests or by executing 
cooperative agreements or cooperative management agreements or 
easements between the Federal Government, again, on a totally 
voluntary basis on the part of the land owner. I would note 
that all major land owners in this area support this, as do the 
chambers of commerce and as does our Governor, our Department 
of Natural Resources, and letters from these people and 
organizations will be submitted.
    The Down River Community Conference, which is an 
organization composed of all of the local units of government, 
also supported by legislature, has indicated support, and the 
Honorable Susan Whelan, M.P., has sent a letter, which we have 
included in the record, which indicates her personal support 
for this, and I am working with both her and Deputy Prime 
Minister Herb Gray in Canada to try to move forward Canadian 
participation, particularly in some very special areas.
    Ducks Unlimited will be able to tell you about the 
remarkable habitats which we have in the Detroit River, both on 
our side of the river and on theirs. I would note to you that 
for an industrial river, this is a remarkable thing. They have 
grown enormous walleye. There are lake sturgeon. This area is a 
remarkable trout stream and also has salmon going up and down 
the river. You should know that when the freighters pass up and 
down the river in November and December, you will see clouds of 
ducks going up, so that if you are standing on the shore, it 
looks like smoke. It is unbelievable, the number of birds that 
are out there, particularly in the celery beds which are there.
    I would anticipate that you will note that there is no 
change of substantive Federal law and no impingement upon State 
law, and we have had a very extensive dialogue both with the 
States and with the local units of government about the fact 
that this constitutes no threat to them nor does it constitute 
threat to the land owners who are on the shore.
    There is some extraordinary habitat out in the river itself 
and the function of the refuge will, in fact, be simply to 
allow a coordinated management of all of this area with the 
full participation of State and local units of government, 
which are extensive land holders down there, including a very 
major hunting area of about 3,000 acres at Pointe Mouillee, 
which is just to the south of the areas that you are looking at 
here, and also some major county and city parks which are there 
right on the shore.
    The establishment of cooperative management arrangements 
between the Federal Government and the different State, local, 
and private interests in the area will afford us an opportunity 
to really realize the fish and wildlife values of these areas, 
both insofar as fish and wildlife are concerned and insofar as 
other value.
    I would note that the Detroit River is, amongst other 
things, a great hunting area. I have shot ducks out there since 
I was a very young man and it is dangerous, but it is great 
fun.
    [Laughter.]
    Mr. Dingell. I would note to you that hunting will be done 
and fishing and trapping and other things, which are always of 
concern to members of this Committee, under Federal law if this 
goes forward, and that has been a very major concern to the 
hunters and fishermen of the area and to the State game and 
fish. I would note that NRA and the Michigan United 
Conservation Clubs are in strong support of this legislation, 
which tends to indicate that there is no threat to the shooters 
and the sportsmen of the country.
    Having said that, Mr. Chairman, if you have some questions, 
I will be delighted to respond. I do want to express my 
personal appreciation to you and to Mr. Underwood and the 
Committee for your kindness to me today. I have tried to 
respond by giving you no problems or troubles with this 
legislation and I have the privilege of also thanking these 
distinguished Americans who are here with us today to give you 
further comments about their interests in this legislation.
    Mr. Gilchrest. Thank you very much, Mr. Dingell.
    I will yield now for a statement and, I guess, any 
questions Mr. Underwood may have. Mr. Dingell, you represent 
the Detroit River. I represent the Chesapeake Bay. Mr. 
Underwood represents the Pacific Ocean. Mr. Underwood?
    Mr. Dingell. And between us, Mr. Chairman, we are going to 
see that those wonderful areas are protected.
    Mr. Gilchrest. Yes, sir.
    Mr. Underwood. Thank you, Mr. Chairman, and I, too, want to 
welcome our esteemed colleague, the Dean of the House, John 
Dingell, to the Subcommittee.
    I am a proud cosponsor of your legislation. I know that 
there may be some minor issues that need to be worked out, but 
I see that you have brought everybody but the Canadians to our 
Subcommittee today, and I would just like to note for the 
record that as dangerous as duck hunting may be for you, it is 
much more dangerous for the ducks.
    [Laughter.]
    Mr. Dingell. I thank you for those kind words.
    Mr. Underwood. I ask unanimous consent to enter my 
statement into the record, as well as a statement of Ron Kind.
    Mr. Gilchrest. Without objection.
    Mr. Underwood. Thank you.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, a Delegate to Congress 
                               from Guam

    Thank you, and good morning, Mr. Chairman. In the interest of time, 
my opening remarks will be brief.
    Allow me first to welcome our esteemed colleague, the Dean of the 
House of Representatives, Congressman John Dingell. I am proud to be a 
co-sponsor of your bill, H.R. 1230, and I look forward to learning more 
about your ideas for enhancing the fish and wildlife habitat of the 
Detroit River.
    Mr. Chairman, I also think it appropriate to recognize Mr. Dingell 
for his life time dedication towards the protection, conservation and 
restoration of our Nation's invaluable fish and wildlife heritage.
    His leadership on the Migratory Bird Commission, his commitment 
towards fulfilling the North American Waterfowl Management Plan, and 
his strong support of the Dingell-Johnson and Pittman-Robertson Sport 
Fish and Wildlife Restoration Programs, are just a few examples of his 
remarkable contributions to conservation.
    Perhaps most important, Mr. Dingell's dedication has meant that 
millions of sportsmen and women will always have unspoiled places to 
fish, to hunt, to hike, or to simply reflect on life, and we are all 
better for it.
    Before settlement by the French in the late 1600's, the Algonquin 
tribes of the Ottawa and Chippewa, and also the Iroquois and the Huron 
tribes, were drawn to the Detroit River for easy transportation. They 
were also drawn to the river to exploit its tremendous natural bounty 
of fish, forests and fur.
    Regrettably, much of what distinguished the Detroit River to Native 
Americans has been lost through subsequent centuries of settlement and 
industrial development. But not all was lost. And like all great 
rivers, the Detroit River has proven to be resilient. It was, after 
all, designated as a American Heritage River in 1998 by President 
Clinton.
    H.R. 1230 provides us with the unique opportunity to expand the 
existing Wyandotte National Wildlife Refuge to create a new 
international wildlife refuge to further restore and enhance the fish 
and wildlife habitats of the lower Detroit River. In my opinion, it is 
an opportunity that this Congress should not pass up.
    I realize that some concerns have been raised about the bill as 
introduced. Yet I am advised that none of these issues are 
insurmountable. In this regard, I look forward to amicably resolving 
these issues, and in moving ahead on this innovative legislation. Thank 
you.
                                 ______
                                 
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                         the State of Wisconsin

    I want to commend Chairman Gilchrest and Ranking Member Underwood 
for holding this public hearing on legislation to establish a Detroit 
River International Wildlife Refuge. I also wish to congratulate 
Representative John Dingell for introducing this important measure.
    Refuges are needed within the Great Lakes region, and the refuge 
created by this legislation will provide for the protection of vital 
fish and wildlife species. Unfortunately, our nation does a poor job of 
funding these important environmental treasures. As documented by the 
Audubon Society report, entitled Refuges in Crisis, the National 
Wildlife Refuge System is in a state of crisis. In the Audubon report, 
ten refuges, each of which is a major national or international 
conservation priority, are jeopardized by imminent threats.
    In order to improve these refuges, the federal government needs to 
significantly increase its financial commitment. Specifically, I would 
like to bring to the Committee's attention the dire need for increased 
funding for U.S. Fish and Wildlife Service (FWS) programs within Region 
3; a region which encompasses some of the nation's most important 
ecosystems, including the Detroit River, the Great Lakes and the entire 
Upper Mississippi River Basin. The FWS programs within Region 3 are 
vital to the continued diversity and ecological health of these 
systems, which in turn support a vast array of commercial and 
recreational enterprises.
    Sport fishing on the Upper Mississippi River alone provides $175 
million annually to the regional economy. The Upper Mississippi 
National Fish and Wildlife Refuge and the Trempealeau, Mark Twain, and 
Clarence Cannon Refuges in the Upper Mississippi River Basin attract 
more than 4 million visitors annually--more than Yellowstone National 
Park!
    Together with its tributaries, the Upper Mississippi River system 
provides the largest contiguous area of fish and wildlife habitat in 
the central United States. This river system was recognized by Congress 
as a ``nationally significant ecosystem and a nationally significant 
navigation system.''
    As a member of Resources Committee, I hope to work with the 
administration and with our colleagues on the Appropriations Committee 
to find additional resources that are needed for addressing financial 
needs that exist within our nation's refuges. Even within tight budgets 
and the existing operations and maintenance backlogs, it is imperative 
that this nation provides additional funding for the National Wildlife 
Refuge System.
    It is my hope that when discussing the future of the Refuge System, 
the administration and the majority party address the need for 
sufficient and equitable distribution of funds to regional wildlife 
refuges. Equitable distribution of Refuge System funds is important in 
ensuring the future viability of the National Wildlife Refuge System.
    Thank you for your attention to this important matter.
                                 ______
                                 
    Mr. Underwood. I have no questions, Mr. Chairman.
    Mr. Dingell. Mr. Chairman, I would also ask that the 
editorials in the papers which we have submitted, together with 
the letters of support, resolutions of State and local units of 
government, be inserted in the record in appropriate fashion.

    [The aforementioned information has been retained in the 
Committee's official files.]

    Mr. Underwood. Let me ask just one question, then, because 
it appears to involve a high level of collaboration and 
cooperation with the Canadians. Perhaps you could explain a 
little bit of the work that you have done and the local 
communities have done with the Canadians to help work this out.
    Mr. Dingell. I would simply observe that our people in the 
Detroit area love that river and they love the lake above Lake 
St. Clair and the lake to the immediate south, which is Lake 
Erie. There are wonderful places for recreation, fish and 
wildlife, and for rebuilding of person after a rather busy 
week. The place is full of boats, full of hunters, full of 
fishermen. All we had to do, really, to let people know about 
this was to tell them what we were trying to do, consult with 
them about what they thought ought to be done, and lo and 
behold, they all came forward, including Mr. Jakcsy and the 
steel company and have already given us the first 20 acres.
    So if you bring the people in and you have the kind of 
folks we do up in our area, including Mr. Hartig, who is the 
navigator, and all of our people from State and local units of 
government, from also the private organizations or some of the 
semi-governmental agencies which we have up there, the result, 
you will always see.
    And I would simply note there that that map there which you 
are seeing tells you why our people are so enthused about it 
and the rich opportunity for, with absolutely minimal 
expenditures, to have a really great program for protecting a 
critical area, and this has been identified by different 
government agencies that have studied it as an area of peculiar 
and special wildlife value.
    Mr. Gilchrest. Thank you, Robert.
    Mr. Dingell, the area shown on the map, I guess what I am 
trying to understand is what exactly will be the wildlife 
refuge, any part of the shoreline on either side of the river 
through the course of this 18 miles?
    Mr. Dingell. Well, maybe if I come over, Mr. Chairman, I 
can kind of point to some of the things that might help with 
the answer to your question. You will note that there are open 
spaces. This is Henopen Marsh, which is actually run by the 
township of Grosse Ile, which is here, a major conservation 
area which the city has gotten from the Federal Government more 
recently. There will be cooperative agreements, I am convinced, 
with regard to those.
    The east side of the river, which flows at this point north 
and south, is American. The west side is--wait a minute, the 
west side is Michigan, the United States. The east side is 
Canada. The land which was given by National Steel is right 
here at the very north end. It is a home for rum runners. They 
even had a chicken farm on there at one time. The owner had to 
abandon it because there were too many shootouts between the 
revenuers and the rum runners.
    This here is Wyandotte National Wildlife Refuge, which is 
administered by the Fish and Wildlife Service and the 
Shiawassee Refuge. It is about 300 acres. This is an area which 
is undergoing redevelopment. It is called Fighting Island. 
There was some bad will between the U.S. and the Canadians in 
the old days. That was a site that was used for years as a dump 
for chemicals that were processed over here near Wyandotte. It 
now is under the process of being redeveloped, and believe it 
or not, there is some great pheasant hunting and some 
absolutely magnificent duck shooting out there.
    If you come on down, there are some islands down here which 
are now in the process of being bought by various groups, most 
of which are establishing Michigan offices so that they can do 
this.
    Here is absolutely a superb duck area. If you ever get a 
chance go, Mr. Chairman, go.
    Not a lot of these lands are, in fact, going to be 
acquired. Most of the negotiations will be in cooperative 
management agreements and easements. There is a major 
generating facility on the U.S. side and they actually are 
maintaining lands now for conservation purposes in that area. A 
similar thing is going on at Solutia.
    So with fairly small, if any, vehicle acquisition, largely 
which, I think, will be probably by donation, we are going to 
see some remarkable fish and wildlife value. Islands like these 
are very unique. They are very small, but the value for 
wildlife is enormous. The government owns no land. It is all 
done by easements, cooperative agreements.
    Mr. Gilchrest. Mr. Dingell, the boundaries of this refuge 
are not what we see on this map, but they are pieces within 
this mapped out area?
    Mr. Dingell. Yes, sir, Mr. Chairman. What you are seeing 
here are a lot of small tracts of land which are connected by a 
lot of very important water, which is full of aquatic feed for 
ducks, celery and things of that kind, which are immensely 
valuable. And some of them, for example, Mud Island, one of my 
old friends used to conduct research shoots out there. I never 
got to go up there.
    Mr. Gilchrest. So most of the development and most of the 
homes will not be within the boundary of the wildlife refuge 
that we see on this map?
    Mr. Dingell. No. Actually, if you look at this, you will 
find, Mr. Chairman, there is very little which defines the 
boundaries. The boundaries under which refuge activities may be 
conducted are defined, but there are no meets and bounds 
definitions or description of the refuge. It just permits 
refuge activities and agreements and that sort of thing, or in 
instances where a voluntary agreement is negotiated between the 
parties and the land owners. There are no specific areas. And 
we do not mess with our Canadian friends, who are they are very 
sensitive on matters of this kind.
    Mr. Gilchrest. Sure. Thank you very much, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, thank you, and I want to thank 
the Committee and I do want to thank my good friends who have 
come here, some at great distance from Michigan to be with the 
Committee and tell you their concerns. Thank you, Mr. Chairman.
    Mr. Gilchrest. Yes, sir.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Good morning Mr. Chairman and other distinguished Members of the 
Committee. It is an honor and a pleasure for me to join you today to 
testify in support of H.R. 1230, legislation that will create an 
International Wildlife Refuge along the Detroit River in southeast 
Michigan. I thank the Subcommittee and Chairman James Hansen for their 
assistance and for holding this hearing. This legislation is of immense 
importance to the people of southeast Michigan and our neighbors in 
south Ontario.
    Mr. Chairman, I would like to begin by touching on the rich history 
of the Detroit River and noting that this year marks the 300th 
anniversary of the founding of the City of Detroit. It was the Detroit 
River--the vital artery that linked the Great Lakes--which first 
brought the Indians, French, British, and Americans to the Midwest. 
They came because of the rich ecological treasures of the River. Long 
before Detroit became the automobile capital of the world, it was the 
fur trading capital of North America. By the late 19th Century, the 
River transformed Detroit into an industrial hub, and soon after 
Detroit became the ``Motor City.''
    Mr. Chairman, the Lower Detroit River is and has been an area of 
tremendous bio-diversity, with unique geological features and a wide 
variety of plant life that attract numerous species of fish and 
wildlife. Being a duck hunter, I would like to point out that this area 
serves as a prime waterfowl migration corridor. In fact, it is 
estimated that 300,000 diving ducks stop in the River to rest and feed 
in beds of water and celery during their fall migration from Canada.
    The Detroit River is important for outdoor enthusiasts of many 
stripes, including fishermen and boaters. At least 65 species of fish 
live in the Detroit River, including 10 million walleye. More than one 
million pleasure boats are registered in Michigan, and over half of 
them use southeast Michigan waterways including the Detroit River.
    However, like many rivers along the Great Lakes, the Detroit River 
has suffered the consequences of prolonged periods of unsound 
environmental practices. The Detroit River, which has lost over 95% of 
its coastal wetland habitats, has been identified as one of 34 
Waterfowl Habitat Areas of Concern by the Canada-United States North 
American Waterfowl Management Plan.
    Despite increased awareness of the importance of the Detroit River, 
habitats continue to be degraded. There is a great urgency and unique 
opportunity to protect the remaining high quality habitats before they 
are lost to further development and to rehabilitate and enhance 
degraded ones. This is essential to sustain quality of life of those 
living along the Detroit River.
    Efforts to restore the ecology of the Detroit River have been 
underway on both the Canadian and American shores. In 1960, Congress 
created the Wyandotte National Wildlife Refuge, a 304-acre entity that 
sits in the Detroit River. Earlier this year, the Wyandotte Refuge grew 
when National Steel donated Mud Island to the Fish and Wildlife 
Service. Currently, the Trust for Public Land and Nature Conservancy 
are working to acquire and preserve additional pieces of land along the 
Detroit River.
    In 1998, President Clinton designated the Detroit River an American 
Heritage River. I am pleased to report that this summer the Detroit 
River will also receive a Canadian Heritage River designation, making 
it the first international heritage river in the world.
    <bullet> LIf passed, H.R. 1230 will do the following:
        1. LAuthorize the Secretary of Interior to acquire American 
        lands adjacent to the Detroit River for purposes of wildlife 
        and habitat protection. This bill grants the Secretary 
        flexibility in acquiring land within the boundaries of this 
        Refuge. However, I want to emphasize that Section 5 of H.R. 
        1230 is intended to prohibit all federal takings from private 
        property owners, the State or local governments unless the 
        property owner is a willing seller/donor. This means the State 
        of Michigan, for example, can approve or disapprove of the 
        acquisition by the federal government of any State lands or 
        bottomlands.
        2. LManagement of the Refuge. The Refuge will include all land 
        from the American side of the River west to Jefferson Avenue. 
        The Refuge will run from the northern border of Zug Island to 
        the southern border of Sterling State Park. Approximately 5,451 
        acres will be included within the boundaries of the Refuge.

          LSection 6 of H.R. 1230 explains how the Refuge will be 
        managed. Federal land within the Refuge will be managed by the 
        Secretary, as is currently done at the Wyandotte Refuge. 
        However, ownership and management of all State, local, and 
        privately owned land will be maintained by the current owner 
        unless land or interest therein is sold or donated by willing 
        sellers or donors to the federal government. Management and 
        ownership of the waters of the Detroit River and Lake Erie will 
        not be changed by this bill. Furthermore, the current riparian 
        rights will be protected and unchanged by passage of H.R. 1230.

          LOwnership of the bottomlands of Lake Erie will remain with 
        the State of Michigan. In accordance with current law, no 
        activities shall be undertaken on these bottomlands without the 
        Secretary obtaining all required State approvals. No additional 
        federal permits, licenses, approvals or fees will be required 
        for Michigan residents to conduct activities on or adjacent to 
        the Detroit River or Lake Erie as a result of H.R. 1230.
        3. LPriority Use of the Refuge. Section 6 (b) explains the 
        priority uses of the Refuge. The intent of H.R. 1230 is that 
        the Refuge should be used for fish and wildlife oriented 
        recreation, including hunting, fishing, trapping and boating. 
        The Secretary, pursuant to Section 6 (b), shall ensure that 
        these uses are the priority uses of the refuge. State laws 
        pertaining to hunting, fishing, trapping and boating should be 
        maintained.
        4. LAllow the Secretary of Interior to grant the donors/sellers 
        either a permanent conservation easement or negotiate 
        cooperative management agreements with landowners living along 
        the Detroit River. Section 7 of H.R. 1230 is unique and offers 
        potential sellers/donors incentives to transfer land to the 
        federal government in exchange for protections against 
        liability, so long as their property has met applicable State 
        standards regarding pollutants or contaminants and the 
        Secretary deems acquisition in the national interest. This will 
        encourage owners of land no longer used for industrial purposes 
        to trade, sell, or donate property to the refuge rather than 
        letting it sit idle.
        5. LAuthorize the Secretary to use any existing authorities to 
        complete projects along the Detroit River. H.R. 1230 also 
        encourages the State to use ``Greenways'' authority under the 
        Transportation Equity Act (TEA-21) to provide funding for 
        trails within the Refuge.
        6. LAuthorize the Secretary to spend such sums as may be 
        necessary to obtain properties donated to the United States for 
        the purpose of adding such lands to the Detroit River 
        International Wildlife Refuge.
        7. LAuthorize the President and Secretary of Interior to 
        negotiate with Canadian officials to create a Detroit River 
        International Wildlife Corridor in the lands adjacent to the 
        River, including both American and Canadian lands.
    H.R. 1230 represents a sensible approach to conservation by 
prescribing a formula that balances the need to preserve and protect 
the Detroit River for conservation and recreational use and the need to 
protect property rights. H.R. 1230 will demonstrate how--working as a 
team--federal, state, and local officials in the United States and in 
Canada, can work with businesses, conservationists and citizens to 
create something special, that will improve the quality of life for all 
our citizens.
    H.R. 1230 has been enthusiastically received by the citizens and 
communities of southeast Michigan. Just yesterday, Michigan Governor 
John Engler offered his ``enthusiastic support'' for H.R. 1230. I have 
submitted for the Committee Report his and other relevant letters of 
support from communities, businesses, conservation groups, civic 
organizations, and other elected officials.
    Again, I thank the Committee for inviting me today and also for 
your efforts to give Detroit a lasting birthday present by passing H.R. 
1230. If the Committee has any questions, I would be pleased to answer 
them at this time.
                                 ______
                                 
    Mr. Gilchrest. Mr. Dingell, if you would like, have time, 
you are welcome to join us on the dais.
    Mr. Dingell. I would be honored to do that and I would love 
to. I am going to sit down here with my friends with my thanks 
to this Committee.
    Mr. Gilchrest. Yes, sir. Thank you.
    We would ask the next witnesses to join us at the panel, 
Mr. Dan Ashe, Assistant Director for Refuges and Wildlife, U.S. 
Fish and Wildlife Service; Mr. John Hartig, Greater Detroit 
American Heritage River Initiative; Mr. John Jakcsy, National 
Steel, Great Lakes Division; Ms. Helen Taylor, State Director, 
Michigan Chapter of the Nature Conservancy; Mr. Gildo Tori, 
Ducks Unlimited; and Mr. Dave Nomsen, Pheasants Forever, Vice 
President of Government Affairs. I hope there is enough room 
down there, ladies and gentlemen.
    Welcome, everybody. We look forward to your testimony and 
appreciate your efforts in this most worthy endeavor.
    Mr. Ashe, you may begin.

STATEMENT OF DANIEL M. ASHE, ASSISTANT DIRECTOR FOR REFUGES AND 
  WILDLIFE, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Ashe. Thank you, Mr. Chairman. It is good to be here 
again and in front of the Subcommittee. One of these days, we 
are going to have to do that canoe hearing out at Blackwater 
Refuge that you have talked about from time to time. This 
Committee room is a great venue, but that would even be a 
better venue.
    Mr. Gilchrest. I agree with you, Mr. Ashe. We will make a 
note to do that before the end of July.
    Mr. Ashe. There we go.
    I appreciate the chance to provide the administration's 
views on H.R. 1230, authorizing the establishment of the 
Detroit River International Wildlife Refuge. The administration 
believes that implementation of this concept can showcase the 
role of America's National Wildlife Refuge System in promoting 
international environmental cooperation and will support H.R. 
1230 if our concerns regarding potential contaminant liability 
can be addressed.
    The bill creates the Detroit River International Wildlife 
Refuge, essentially expanding the existing Wyandotte National 
Wildlife Refuge to encompass 19 miles and various islands in 
the Detroit River. While we are familiar with the area and its 
wildlife resources due to the presence of the existing refuge, 
we have not engaged in a detailed planning effort for this 
proposal and don't have much of the specific information that 
we will eventually need to make proper management decisions.
    The administration believes in emphasizing the use of a 
wide range of innovative conservation tools beyond traditional 
land acquisition, including conservation easements and 
technical and financial assistance to land owners. We believe 
that this bill will further the use of these innovative 
approaches.
    Although the bill proposes something unique, an 
internationally-oriented wildlife refuge, it is grounded on 
programs with which we have extensive and successful 
experience. One of the chief purposes set forth in the bill is 
to facilitate conservation partnerships among the Service, 
Canada, the national and provincial governments in Canada, 
State and local governments in the United States, local 
communities in the U.S. and Canada, and conservation 
organizations and other non-Federal entities.
    This is not a new experience for either the Fish and 
Wildlife Service or the Refuge System. We have been working 
with Canada for over 10 years in the context of the North 
American Waterfowl Management Plan and with the United States 
through our Partners for Fish and Wildlife Program. These 
programs have been highly successful and our National Wildlife 
Refuges play a major role in both. Therefore, if the bill 
should be enacted, we have a sound operational basis for 
proceeding with these types of partnerships.
    The natural resource values of the Detroit River were well 
articulated by Congressman Dingell, and I will not repeat that 
here. Hunting, fishing, and boating take place throughout the 
area proposed for inclusion in the refuge. On an average day, 
the amount of use can exceed 500 waterfowl hunters, over 400 
anglers, and over 800 pleasure boaters. Compatible hunting and 
fishing are priority public uses within the Refuge System and 
we anticipate that these uses would be enhanced by the 
conservation efforts that this bill authorizes.
    Other public uses, such as photography, interpretation, 
environmental education, and wildlife observation now takes 
place on a very limited basis. However, if the refuge were 
established and trails and other facilities provided, we would 
anticipate that these uses would dramatically increase and that 
up to 1,000 visitors a day could be expected.
    Mr. Chairman, you and the other Subcommittee members are 
well aware of the operations, maintenance, and construction 
needs within the Refuge System. Enactment of H.R. 1230 will 
increase those needs. The administration is committed to 
achieving balance between acquiring new lands and meeting the 
needs for operating and maintaining what we have. The Service 
has made a commitment to link the growth of the Refuge System 
with the costs of management and to consider potential 
operations and maintenance costs when we consider potential 
additions to the system. We will do that in this case.
    We estimate that up to six full-time staff may be required 
to operate and maintain a refuge of the size of the proposed 
Detroit International Wildlife Refuge, with an annual operating 
budget in the neighborhood of $650,000. A refuge located in an 
urban setting with high public use potential, like the one 
proposed in this bill, is also likely to require significant 
capital investment, including administrative facilities, 
parking lots, trails, kiosks, and potentially a visitor's 
center. Added costs for habitat restoration would undoubtedly 
need to be carefully considered when making decisions to 
acquire land or accept donated lands within the proposed 
refuge. We would hope to work with Mr. Dingell and the Detroit 
community to secure significant non-Federal contributions to 
this effort.
    As mentioned initially, we have some concerns about 
contamination associated with this proposal, or contaminated 
areas associated with this proposal. The Detroit River has a 
long history of contaminant-related impairments to beneficial 
uses of its waters, and the longstanding Departmental policy is 
that any proposed acquisition be evaluated for potential 
contaminant problems. Although it is allowable under current 
regulations to acquire contaminated property after appropriate 
reviews and approvals, in reality, it is highly unlikely, and 
if we did now acquire contaminated property, remedies would 
still be available against the prior owner and other 
responsible parties for any necessary cleanup costs.
    Section 7 of H.R. 1230 authorizes the President to accept 
donations of contaminated property if cleaned to applicable 
State standards, and then to indemnify the owner against future 
claims for cleanup costs, thus transferring these costs to the 
taxpayer. While it is difficult to argue against the enactment 
of discretionary authority, we nevertheless believe this 
provision should be removed from the bill.
    We do not believe that we should be creating situations 
where costs for contaminant cleanups could be shifted from 
responsible parties to the American taxpayer. Given that the 
cost to clean and restore contaminated areas could far exceed 
the value of the property, the Service could be subject to 
intense pressure to accept donations and provide the authorized 
waiver of liability. This would leave liability for future, 
perhaps unforeseen, cleanup costs with the Federal Government 
rather than the responsible party.
    Having said all of that, we do believe there is a real 
opportunity for international environmental progress as a 
result of the concepts embodied in H.R. 1230. We would expect 
no less in legislation from Representative Dingell, who has 
done as much or more for the National Wildlife Refuge System 
than anyone in modern times. We hope we can reach a mutually 
acceptable solution to our concerns and work together to enact 
this legislation.
    That concludes my statement and I will be pleased to 
respond to your questions.
    Mr. Gilchrest. Thank you, Mr. Ashe.
    [The prepared statement of Mr. Ashe follows:]

  Statement of Dan Ashe, Chief, National Wildlife Refuge System, U.S. 
       Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman, I appreciate this opportunity to provide the 
Administration's views on H.R. 1230, authorizing the establishment of 
the Detroit River International Wildlife Refuge. The Administration 
believes implementation of this concept can showcase the role of 
America's National Wildlife Refuge System in promoting international 
environmental cooperation, and will support H.R. 1230 if our concerns 
regarding potential contaminant liability can be addressed.
    As the establishment of the Detroit International Wildlife Refuge 
has not been considered a priority acquisition by the Service, the 
Service has done no formal planning or evaluation work related to Mr. 
Dingell's proposal, H.R. 1230. The bill expands the existing Wyandotte 
National Wildlife Refuge (NWR) from 460 acres to include land along 19 
miles of the Detroit river and various islands in the Detroit River. So 
while we are generally familiar with the area, we lack vital 
information at this point in time, such as how many acres will be added 
to the refuge boundary and the environmental condition of these lands, 
necessary to resolve concerns we have with the legislation, especially 
related to wetland and shoreline restoration costs.
    In addition to establishing the new refuge boundaries, the bill 
also provides authority for the Secretary to acquire the lands and 
waters within those boundaries not only with appropriated or donated 
funds, but also by donation or exchange. In fact, one of the islands, 
Mud Island, was officially donated to us just last Saturday, and I want 
to publicly thank Congressman Dingell for arranging that donation.
    The Administration believes in emphasizing the use of a wide range 
of innovative conservation tools beyond traditional land acquisition, 
including conservation easements, technical and financial assistance to 
landowners, rehabilitation of existing land holdings, and the purchase 
of development rights. We believe that this bill will further the use 
of innovative tools as well as donations.
    Although this bill proposes something unique - an internationally-
oriented Wildlife Refuge - it is grounded on programs with which we 
have extensive and successful experience. One of the chief purposes set 
forth in H.R. 1230 for expanding and refocusing the Wyandotte refuge 
is:
        to facilitate partnerships among the Service, Canadian national 
        and provincial authorities, State and local governments, local 
        communities in the United States and in Canada, conservation 
        organizations, and other non-Federal entities to promote public 
        awareness of the resources of the Detroit River.
    This is not a new experience for either the Fish and Wildlife 
Service or the Refuge System. We have been doing this with Canada for 
over 10 years with the North American Waterfowl Management Plan, and 
within the United States with our Partners for Fish and Wildlife 
Program, although neither has been focused on the Detroit River. Both 
of these programs have been highly successful, and our National 
Wildlife Refuges play a major role in both.
    The Department believes that the bill will build on this success 
by, among other things, authorizing the Secretary to enter into 
cooperative agreements with non-federal landowners within the newly-
established refuge boundaries in order to both encourage public 
participation in the conservation of these lands and to help ensure 
that such lands are managed in a manner consistent with the bill's 
requirements.
    Therefore, should the bill be enacted, we have a sound operational 
basis for cooperative conservation efforts, both with the Canadian 
government, and with potential conservation partners among state, 
provincial and local governments, business and community groups on both 
sides of the border.
    The natural resource values of the Detroit River are well 
documented. They include major migratory corridors for waterfowl, and 
other birds. In particular, this area was once one of the most 
significant staging areas for canvasbacks and other diving ducks in the 
United States, and significant concentrations are still found there. 
The Detroit River is internationally renowned for its walleye sport 
fishery, and supports many other species of fish as well. The 
``Findings'' section of the bill provides considerable detail on 
wildlife resources, and I will not repeat that here.
    Existing public use activities on and around Wyandotte NWR include 
fishing, waterfowl hunting, and pleasure boating. The amount of angler 
use during an average day may range up to 100 people, depending upon 
the availability of specific fish species. Waterfowl hunting that takes 
place on the Refuge can range up to 50 hunters per day.
    These activities also take place throughout the area proposed for 
inclusion into the Detroit River Wildlife Refuge. On an average day for 
the entire area the amount of use for waterfowl hunting can exceed 500 
hunters; fishing, over 400 anglers, and for boating, over 800 pleasure 
boats. Compatible hunting and fishing are priority public uses within 
the Refuge System, and we anticipate that these uses would be enhanced 
by the conservation effort this bill authorizes.
    Other public uses such as photography, interpretation, 
environmental education and wildlife observation now takes place on a 
very limited basis. However, if the refuge were established and trails 
and other facilities provided, we anticipate these uses would 
dramatically increase, and that up to 1,000 visitors could be expected 
each day.
    Mr. Chairman, you and the other Subcommittee Members are well aware 
of the operations, maintenance and construction needs within the Refuge 
System, and enactment of H.R. 1230 will increase those needs. The 
Administration is committed to achieving a better balance between 
acquiring new lands and meeting the needs for operating and maintaining 
what we have. Further, the Administration is examining the Service's 
land acquisition process from a management perspective to ensure long-
term management and costs are considered in acquisition decisions. The 
Service has made a commitment to link the growth of the refuge system, 
in part, with the costs of management and to consider potential 
operations and maintenance costs when considering potential additions 
to the system.
    While we have a rough estimate of the base operations of a refuge 
roughly the size of a fully operational Detroit International Wildlife 
Refuge, we are especially concerned about the restoration costs for 
this particular area which we do not have an estimate for but we expect 
to be great.
    We estimate that up to six full time staff may be required to fully 
operate and maintain a refuge the size of the proposed Detroit 
International Wildlife Refuge. An annual operating budget to cover 
costs associated with staffing, operation, and maintenance of, a 
similarly sized and situated refuge may be in the neighborhood of 
$650,000. A refuge located in an urban setting with high public use 
potential like the one proposed in H.R. 1230, is also likely to require 
significant capital investment, including administrative facilities, 
parking lots, trails and kiosks and a visitor center.
    These costs do not, however, include costs necessary to restore the 
critical wetlands, shoreline, and other lands that are degraded. 
Because the creation of the Detroit International Wildlife Refuge was 
not included in the Service's Land Acquisition Priority system, we do 
not have an estimate of the costs associated with these activities, 
however, since roughly 95 percent of the Detroit River's original 
wetlands have disappeared and most of the shoreline is now lined with 
steel seawalls, these costs are likely to be quite large.
    Consistent with the Administration's commitment to achieving a 
better balance between acquiring new lands and meeting the needs for 
operating and maintaining what we currently have in the National 
Wildlife Refuge System, these added costs would undoubtedly need to be 
carefully considered when making decisions to acquire or accept donated 
lands within the refuge boundaries if this bill is enacted. We would 
hope to work with Mr. Dingell and the Detroit community to secure 
significant non-Federal contributions towards these costs if the bill 
were enacted.
    We also have concerns with other parts of the bill and look forward 
to working with Representative Dingell and the Committee to address 
these concerns.
    As mentioned initially, we do have substantial contaminant concerns 
associated with this proposal. The Detroit River has a long history of 
contaminant-related impairments to the beneficial uses of its waters. 
This led the International Joint Commission to list the Detroit River 
as one of 43 Areas of Concern in the Great Lakes basin. Within the 
Detroit River watershed there are many Federal CERCLA (Superfund) 
sites, as well as State of Michigan designated sites of contamination.
    Due to long standing sediment contamination in the river system, 
the U.S. Army Corps of Engineers has disposed of contaminated sediments 
derived from maintenance dredging of navigation channels in confined 
disposal facilities (CDF); first at the Grassy Island CDF, which is 
within the Wyandotte NWR, and currently at the CDF at Pointe Mouillee 
State Game Area. Both CDFs fall within the proposed boundaries for the 
Detroit River International Wildlife Refuge. From 1962-1983, 
approximately 3 million cubic yards of contaminated sediments were 
disposed in the Grassy Island CDF. This CDF lacks the confinement 
technology employed in later CDF designs in the Great Lakes, including 
the Pointe Mouillee CDF.
    In the late 1980s, the Service initiated limited studies on Grassy 
Island that documented contamination in sediment and biota that posed a 
health risk to terrestrial wildlife. As a result of these studies, the 
Department of the Interior designated Grassy Island, in 1995, as 1 of 3 
Hazardous Materials Management Demonstration Sites throughout the 
country. Currently, the Service is evaluating the facility with the 
intent of implementing remedial measures and restoration, if necessary.
    The Michigan Department of Environmental Quality has recently 
assessed sediment contamination in the Trenton Channel, a portion of 
the lower Detroit River that has historically been a contaminant 
hotspot. This survey of 84 sampling locations classified bottom 
sediments ranging from not impacted to extremely contaminated, with 
mercury, heavy metals, PCBs, PAHs, and oil and grease being the primary 
contaminants of concern. Sediment contamination was most severe along 
the mainland shoreline, in areas with fine sands and silts. Six major 
areas with an estimated 483,000 cubic yards of contaminated sediment 
were identified as the areas of sediment concern.
    It is long-standing Departmental policy that any proposed 
acquisition be evaluated for possible contaminant problems. Although it 
is allowable under current regulations to acquire contaminated property 
after appropriate reviews and approvals, in reality it is highly 
unlikely we would ever do so. Grassy Island and other contaminated 
areas within the Refuge System were acquired before the current 
practices were instituted. And if we did now acquire contaminated 
property, remedies would still be available against the prior owner and 
other responsible parties for any necessary cleanup.
    However, section 7 of H.R. 1230 allows the President to accept 
donations of contaminated property, if cleaned to applicable State 
standards, and to then indemnify the donor against any future claims 
for cleanup costs, thus transferring these costs to the taxpayers.
    While it is difficult to argue against the enactment of 
discretionary authority, we nevertheless believe this provision should 
be removed from the bill. We do not believe we should be creating 
situations where costs for contaminant cleanups could be shifted from 
responsible parties to the American taxpayer. Given that the costs to 
clean and restore contaminated areas could far exceed the value of the 
property, the Service could be subject to intense pressure to accept 
donations and provide the authorized waiver of liability. This would 
leave the liability for future, perhaps unforeseen, cleanup costs with 
the Federal government rather than the responsible party.
    There is a real opportunity for international environmental 
progress in the concepts embodied H.R. 1230. We would expect no less in 
legislation from Representative Dingell, who has done as much or more 
for the National Wildlife Refuge System as anyone in modern times. We 
hope we can reach a mutually acceptable solution to our concerns and 
work together to secure its enactment. The Administration will support 
H.R. 1230 if section 7 is deleted.
    This concludes my prepared statement. I would be pleased to respond 
to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Dr. Hartig, you may begin, sir.

 STATEMENT OF JOHN H. HARTIG, RIVER NAVIGATOR, GREATER DETROIT 
               AMERICAN HERITAGE RIVER INITIATIVE

    Mr. Hartig. Thank you, Mr. Chairman, members of the 
Committee. It is a real pleasure and a privilege to be here. 
Again, my name is John Hartig and I am the River Navigator for 
the Greater Detroit American Heritage River Initiative, one of 
14 American Heritage Rivers in the United States and soon to 
become the first International Heritage River System in North 
America, with the Canadian Heritage River designation next 
month.
    Last fall, at the request of Congressman Dingell and Peter 
Stroh, who is the Chairman of the Greater Detroit American 
Heritage River Initiative and who you have written testimony 
from, approached us about bringing together the key players on 
the Canadian and U.S. side of the river, to bring together 
representatives from Ontario Ministry of Natural Resources, 
from Ontario Ministry of Environment, Environment Canada, the 
City of Windsor, Essex Region Conservation Authority, Canada 
Department of Fisheries and Oceans, University of Windsor, and 
equal numbers from the U.S. side, including businesses like 
Solutia, BASF Corporation, DTE Energy, nonprofit organizations 
like Ducks Unlimited, like Friends of Detroit River, and the 
goal of that meeting was to reach agreement on a conservation 
vision for the lower Detroit River ecosystem.
    One of the questions we always get asked in submitting 
grants to do different things is how are you coordinated and 
integrated with Canada? This vision statement is key to keep 
everyone on the same page, to provide clear direction, and 
hopefully will be a catalyst for actions that we all want.
    On the map that Mr. Dingell pointed out to you, on my left 
and to your right, at the top is the vision statement. It says, 
``In 10 years, the lower Detroit River ecosystem will be an 
international conservation region where health and diversity of 
wildlife and fish are sustained through protection of existing 
significant habitats and rehabilitation of degraded ones and 
where the resulting ecological, recreational, economic, 
educational, and quality of life benefits are sustained for 
present and future generations.''
    You can imagine sometimes where you bring two countries 
together, a process of state and lots of stakeholders. It is 
hard to reach agreement on a clear vision statement and a set 
of principles to guide actions. But in this case, we were very 
fortunate. Everyone was bought in. We now have agreement on 
this conservation vision for the lower Detroit River, and I 
have submitted written testimony and I would ask that that be 
entered into the record, if I could, please.
    Mr. Gilchrest. Without objection.
    Mr. Hartig. Thank you. We have this unique area. It is like 
two funnels. We are the intersection of two major flyways 
coming across North America. The intersection of these two 
funnels comes across our region, and as Congressman Dingell 
said, three to five million waterfowl migrate through the area. 
Three-hundred-thousand diving ducks rest there, a huge fishery.
    This resource base is really important to our economies, as 
well. We just completed Walleye Week in the lower Detroit River 
in April. It brought $1 million into the local economy, and 
they caught the single largest walleye ever caught in the 
Professional Walleye Trail Pro-Am Tournament in the United 
States. We are a national record, 13.2 pounds. We now have bald 
eagles nesting along the Detroit River, the first time in 100 
years on the U.S. side of the Detroit River. We have sturgeon 
natural reproduction in the Detroit River. Native Americans 
used to fish for them. Early Europeans used to have a fishery 
for caviar. We haven't had natural reproduction in over 50 
years. We now have it documented this spring in our Detroit 
River.
    It is an exceptional resource. It means a huge amount to 
our local economies. It is very important to achieving the 
quality of life that everyone wants. The number two industry in 
our State, in our region, is tourism and the Detroit River is 
very important to it.
    As a result of Congressman Dingell and Peter Stroh's 
initiative to get all the lower ends of the pyramid together, 
get agreement on a conservation vision, work very closely with 
Deputy Prime Minister Herb Gray, Member of Parliament Susan 
Whelan, we have agreement on where we want to go. The refuge 
would be a wonderful tool to help us get there. The Greater 
Detroit American Heritage River Initiative strongly supports 
this. Thank you very much.
    Mr. Gilchrest. Thank you, Dr. Hartig.
    [The prepared statement of Mr. Hartig follows:]

        Statement of Dr. John H. Hartig, Detroit River Navigator

    Good morning Mr. Chairman and members of the Subcommittee. I am 
John Hartig, the River Navigator for the Greater Detroit American 
Heritage River Initiative. Thank you for inviting me to testify 
regarding H.R. 1230, Congressman Dingell's bill to provide for the 
establishment of the Detroit River International Wildlife Refuge in the 
State of Michigan.
    In 1998 the President of the United States designated the Detroit 
River an American Heritage River. The Detroit River is one of 14 rivers 
that received this designation. We anticipate it will receive a 
Canadian Heritage River designation later this year, making it the 
first international heritage river system in North America. The purpose 
of the U.S. designation is to coordinate and integrate existing federal 
programs for economic development, environmental stewardship, and 
historic preservation, thereby better serving communities and groups 
protecting the rivers.
    My role is to help communities set priorities and then to partner 
with the federal government to achieve their priorities. I am an 
employee of the U.S. Department of Transportation and support for my 
position comes from the Saint Lawrence Seaway Development Corporation, 
the Federal Highway Administration, and the U.S. Coast Guard--all 
organizations within the Department of Transportation.
    The Greater Detroit American Heritage River Initiative will soon 
release a Conservation Vision for the Lower Detroit River and I wish to 
share the fundamental elements of this vision with you this morning in 
hopes that it will assist you in your consideration of H.R. 1230.
    We understand that a successful conservation vision for the future 
of the Lower Detroit River must spring from its heritage as one of 
North America's greatest rivers. The Detroit River connects the Upper 
and Lower Great Lakes. Further, it links Canadians and Americans, and 
it connects us with both past and future generations still to come. The 
Detroit River is an invaluable, multifaceted resource that serves as 
the foundation of our economies, provides numerous recreational 
opportunities and ecological values, and enhances our quality of life. 
Yet, the River, and the quality of the life it sustains are at risk.
    The Detroit River Remedial Action Plan (RAP) notes that over 95% of 
the historical, coastal wetlands along the river have been lost to 
development. It is urgent that we protect remaining coastal wetlands 
and ecological features before they are lost to further development, 
and we must rehabilitate degraded wetlands and ecological features.
    More that 29 species of waterfowl and 65 kinds of fish make their 
home in the Detroit River. The Detroit River is also a major migration 
corridor for hundreds of fish, butterfly, raptor, neo-tropical bird, 
and waterfowl species. Approximately 150 species of bird nest near the 
river.
    The diversity of biota and habitats in the Lower Detroit River 
provides abundant benefits to the over 5 million area residents. A 
vision based on conservation principles will secure these benefits for 
generations to come.
    The Lower Detroit River has an international reputation for duck 
hunting. In 1991, retail sales related to waterfowl hunting in Michigan 
were estimated at $20.1 million. During the same year, bird watching, 
photography, and other non-consumptive uses of waterfowl contributed an 
additional $192.8 million to Michigan's economy. Similar 1998 
statistics show that spending for hunting and fishing near the City of 
Windsor and Essex County totaled $2.2 million, while an additional 
$14.6 million was spent on non-consumptive activities, including 
naturalist activities.
    Over 870,000 pleasure boats are registered in Michigan and about 
half of those are used on the Detroit River and Lake St. Clair, in part 
to fish for the estimated 10 million walleye that ascend the Detroit 
River each spring from Lake Erie to spawn. It is estimated that, each 
spring, walleye fishing alone brings in $1 million to communities along 
the lower Detroit River.
    Despite increased public awareness of their importance, fish and 
wildlife habitats in the Lower Detroit River continue to be destroyed 
and degraded. There is a sense of urgency and a unique opportunity to 
protect the remaining high quality habitats before they are lost to 
further development and to rehabilitate and enhance degraded ones. This 
is essential to sustain the quality of life that attracts so many 
people to the Detroit River corridor.
    The time is right for agreement on a conservation vision for the 
Lower Detroit River Ecosystem. This conservation vision for the Lower 
Detroit River Ecosystem will:
    <bullet> LProvide strategic direction for habitat conservation 
programs in the Lower Detroit River and support linkages with similar 
efforts in tributaries and their watersheds;
    <bullet> LFurther binational coordination of efforts to conserve 
natural resources in this internationally significant region;
    <bullet> LProvide the rationale and direction for local 
conservation and land use planning initiatives, and illustrate their 
role in achieving this conservation vision; and
    <bullet> LCatalyze actions in both Canada and the United States to 
conserve and protect unique habitats and ecological features for the 
benefit of present and future generations.
    Recognizing the importance of the Lower Detroit River Ecosystem in 
sustaining quality of life, the following conservation vision was 
developed to provide strategic direction for management:
        In 10 years the Lower Detroit River Ecosystem will be an 
        international conservation region where the health and 
        diversity of wildlife and fish are sustained through protection 
        of existing significant habitats and rehabilitation of degraded 
        ones, and where the resulting ecological, recreational, 
        economic, educational, and quality of life benefits are 
        sustained for present and future generations.
    This conservation vision is supported by the following elements 
that further define the desired future state of the Lower Detroit 
River:
    <bullet> LRemaining marshes, coastal wetlands, islands, and natural 
shorelines are protected in perpetuity from development;
    <bullet> LDegraded marsh, wetland, island, and shoreline habitats 
are rehabilitated, wherever and whenever possible, and protected in 
perpetuity;
    <bullet> LAn International Wildlife Refuge is established and is 
managed in a partnership consistent with this vision statement;
    <bullet> LThe environment is clean and safe for all wildlife, fish, 
and other biota, including humans;
    <bullet> LFish and wildlife communities are healthy, diverse, and 
self-sustaining;
    <bullet> LLevels of toxic substances do not threaten wildlife, 
fish, or human health;
    <bullet> LEconomic development and redevelopment is well planned, 
aesthetically pleasing, and environmentally sustainable; and
    <bullet> LPublic access and recreational and educational uses are 
seen as priorities for achieving quality of life.
    Further discussions are necessary to more fully develop specific 
partnerships and projects that will enable us to achieve this desired 
future state and to ensure that all stakeholder groups participate. As 
much as possible, future actions should capitalize on and even flow out 
of existing initiatives. Examples include the Detroit River Canadian 
Cleanup Committee, the U.S. Remedial Action Plan Team for the Detroit 
River, the Greater Detroit American Heritage River Initiative, and the 
anticipated Canadian Heritage River initiative for the Detroit River. 
The present binational effort to develop delisting criteria for the 
river, such as environmental and natural resource rehabilitation 
targets, should provide good direction for activities.
    Future activities can be broadly organized into two categories. The 
first focuses on habitat protection, whereby existing high quality 
habitats or features are protected before their functions are lost. 
Protection of existing habitats or features is a higher priority than 
rehabilitating degraded ones--although all stakeholders recognize the 
critical importance of rehabilitating degraded habitats along the 
river. Most of the remaining habitats or features are irreplaceable to 
the Lower Detroit River Ecosystem. Their protection is essential if the 
Detroit River is to maintain the significant fish and wildlife values 
it possesses. Another priority is to rehabilitate areas in accordance 
with the recommendations for the Biodiversity Conservation Strategy for 
the Essex Region and the habitat inventory recently completed for the 
U.S. side of the river by the U.S. Geological Survey-Great Lakes 
Science Center.
    The achievement of this conservation vision will require that 
people on both sides of the Detroit River recognize that ecosystem 
integrity is the foundation for healthy economies and communities. All 
stakeholders are encouraged to champion binational and regional 
cooperation, and practice stewardship. New partnerships for monitoring 
will be essential to measure and celebrate progress. Use of 
geographical information system and World Wide Web technologies will 
provide essential information and powerful analytical tools to help 
stakeholders make more informed decisions. Innovative education and 
outreach programs will be necessary for municipalities, businesses, and 
citizens to understand their important roles and their individual 
responsibilities in achieving this conservation vision.
    We now have binational agreement on this Conservation Vision for 
the Lower Detroit River Ecosystem. The proposed Detroit River 
International Wildlife Refuge has come out of the cooperative, Canada-
United States efforts to reach agreement on the Conservation Vision. 
There is broad-based support amongst all levels of government, 
businesses, nongovernmental organizations, and concerned citizens for 
the creation of a Detroit River International Wildlife Refuge. Owners 
would manage many coastal habitats within the proposed refuge 
voluntarily. For example, businesses and local units of government 
could voluntarily manage upland and aquatic habitats on their property 
in support of refuge goals. Some lands may be donated, like the recent 
donation of Mud Island by National Steel Corporation to the U.S. Fish 
and Wildlife Service. Some key islands have been acquired for 
conservation and recreation purposes like Stoney Island. This island 
has been acquired by Michigan Natural Resource Trust Fund dollars. 
Existing federal and state programs would be used to conserve and 
rehabilitate key habitats. For example, Hennepin March is proposed to 
be rehabilitated using Water Resources Development Act funding. Calf 
Island is proposed to be purchased for conservation and recreation 
purposes using North American Wetlands Conservation Act funding. It is 
proposed that a variety of governmental, nongovernmental, and business 
programs, such as the Wildlife Habitat Council, will be used to achieve 
the goals of the Detroit River International Wildlife Refuge.
    The Detroit River is part of one of 20 Biodiversity Investment 
Areas identified by Environment Canada and the U.S. Environmental 
Protection Agency through their State of the Lakes Ecosystem 
Conferences. Detroit River biodiversity includes 65 species of fish and 
29 species of waterfowl. Detroit Audubon Society has identified 300 
species of birds in the Detroit-Windsor area. In further recognition of 
this unique biodiversity, the Canada-United States North American 
Waterfowl Management Plan has identified the Detroit River as part of 
one of 34 Waterfowl Habitat Areas of Major Concern in the United States 
and Canada, and the Western Hemispheric Shorebird Reserve Network has 
declared the marshes along the Lower Detroit River and Northwest Ohio 
as part of a Regional Shorebird Reserve. Again, there is strong multi-
stakeholder support for the creation of the Detroit River International 
Wildlife Refuge. It will further U.S. and Canadian joint efforts to 
conserve key ecological features that provide the foundation for our 
economies and sustain our quality of life.
                                 ______
                                 
    Mr. Gilchrest. Mr. Jakcsy?

 STATEMENT OF JOHN JAKCSY, NATIONAL STEEL, GREAT LAKES DIVISION

    Mr. Jakcsy. Mr. Chairman and members of the Committee, it 
is a privilege and an honor for me to address you this morning. 
My name is John Jakcsy. I am the Regional Manager of 
Communications and Community Relations for National Steel's 
Great Lakes Operations, which is located in Ecorse, Michigan. I 
have been involved in public affairs activities for National 
Steel for nearly 24 years in the Detroit area.
    In the community, I presently serve as Chairman of the 
Board of the Southern Wayne County Chamber of Commerce and 
represent National Steel on the Down River Detroit Waterfront 
Revitalization Task Force, the Greater Detroit American 
Heritage River Initiative, and the City of Ecorse Community 
Enhancement Program. I am a lifelong resident of Wayne County. 
Through these experiences, I have gained much firsthand 
knowledge about the Detroit River and its value to our region.
    With more than five miles of riverfront property, National 
Steel Corporation is a major landowner along the Detroit River. 
The Detroit River plays a vital role to National Steel and its 
employees. The river serves as a major strategic link to 
transport raw materials used in the making of steel. It 
provides other important functions necessary to the operations 
of our company. For our employees, the river serves as a 
resource for recreational activities, such as boating, fishing, 
hunting, photography, and other leisure interests.
    National Steel values the river and its many uses. Our 
environmental stewardship of the river is an important part of 
our corporate culture. We have completed major projects and 
made significant investment to protect and enhance the quality 
of Detroit River water. These efforts include investment for 
water purification, soft shore engineering projects, and the 
establishment of wildlife habitat.
    Recently, on June 15, 2001, National Steel donated its 21-
acre Mud Island property, located in the Detroit River in the 
City of Ecorse, to the United States Fish and Wildlife Service. 
Mud Island lies within a significant staging area for migratory 
birds and fish. The island is a haven for wildlife, trees, 
bushes, and grasses. It will become a part of the Wyandotte 
National Wildlife Refuge.
    Unfortunately, significant loss of coastal wetlands habitat 
on the Detroit River ecosystem has occurred over many years. 
The need to protect remaining habitat and to restore other 
wetlands is clear. The best way to assure this objective is met 
is to create refuges that will provide wildlife protection for 
years to come. This is a main reason why National Steel donated 
Mud Island to become a part of the Wyandotte National Wildlife 
Refuge.
    Under H.R. 1230, Mud Island will become a part of the 
Detroit River International Wildlife Refuge. H.R. 1230 provides 
an effective strategy for preserving wildlife habitat of this 
island and the many other islands, shoals, and channels along 
the lower Detroit River. H.R. 1230 offers a sensible approach 
to land preservation. It recognizes the historical and 
ecological balance of a working and recreational river. It does 
not threaten the rights of private landowners.
    We believe that through the cooperative efforts of National 
Steel, the Down River Waterfront Task Force, the Greater 
Detroit American Heritage Initiative, and many other business 
and civic organizations, great progress is being made to 
protect and restore wildlife habitat of the Detroit River. 
Passage of H.R. 1230 will enhance these efforts.
    The creation of the first international wildlife refuge of 
this sort will be an important mechanism for the vision of 
conservation, restoration, and management of fish and wildlife 
habitat in the United States and Canada. It is an important 
step in preserving Detroit River ecology for generations to 
come. We applaud Congressman John Dingell for introducing this 
legislation and give our support to it.
    Mr. Gilchrest. Thank you very much, Mr. Jakcsy.
    [The prepared statement of Mr. Jakcsy follows:]

 Statement of John Jakcsy, Regional Manager of Community Relations and 
  Communications, National Steel Corporation's Great Lakes Operations

    My name is John Jakcsy. I am the Regional Manager of Community 
Relations and Communications for National Steel Corporation's Great 
Lakes Operations located in Ecorse, Michigan. I have been involved in 
public affairs activities for National Steel for nearly 24 years in the 
Detroit area.
    In the community, I currently serve as Chairman of the Board of the 
Southern Wayne County Chamber of Commerce (1,100 members) and represent 
National Steel on the Downriver Detroit Waterfront Revitalization Task 
Force, the Greater Detroit American Heritage River Initiative and the 
City of Ecorse Community Enhancement Program. I am a lifelong resident 
of Wayne County, Michigan.
    Through these experiences, I've gained much first hand knowledge 
about the Detroit River and its value to our region.
    With more than five miles of riverfront property, National Steel 
Corporation is a major land owner along the Detroit River. The Detroit 
River plays a vital role to National Steel and its employees. The River 
serves as a major strategic link to transport raw materials used in the 
making of steel. It provides other important functions necessary to the 
operations of our company. For our employees, the River serves as a 
resource for recreational activities such as boating, fishing, hunting, 
photography and other leisure interests.
    National Steel values the River and it's many uses. Our 
environmental stewardship of the River is an important part of our 
corporate culture. We have completed major projects and made 
significant investment to protect and enhance the quality of Detroit 
River water. These efforts include investment for water purification, 
soft shore engineering projects and the establishment of wildlife 
habitat.
    Recently, on June 15, 2001, National Steel donated its 21-acre Mud 
Island property, located in the Detroit River in Ecorse, to the U.S. 
Fish and Wildlife Service. Mud Island lies within a significant staging 
area for migratory birds and fish. The island is a haven for wildlife, 
trees, bushes and grasses. It will become a part of the Wyandotte 
National Wildlife Refuge.
    Unfortunately, significant loss of coastal wetlands habitat on the 
Detroit River ecosystem has occurred over many years. The need to 
protect remaining habitat and to restore other wetlands is clear. The 
best way to assure that this objective is met is to create refuges that 
will provide wildlife protection for generations to come. This is a 
main reason why National Steel donated Mud Island to become part of the 
Wyandotte National Wildlife Refuge.
    Under H.R. 1230, Mud Island will become a part of the Detroit River 
International Wildlife Refuge. H.R. 1230 provides an effective strategy 
for preserving wildlife habitat of this island and the many other 
islands, shoals and channels along the lower Detroit River.
    H.R. 1230 offers a sensible approach to land preservation. It 
recognizes the historical and ecological balance of a working and 
recreational river. It does not threaten the rights of private 
landowners.
    We believe that through the cooperative efforts of National Steel, 
the Downriver Waterfront Task Force, the Greater Detroit American 
Heritage Initiative and many other business and civic organizations, 
great progress is being made to protect and restore wildlife habitat of 
the Detroit River. Passage of H.R. 1230 will enhance these efforts.
    The creation of the first international wildlife refuge of this 
sort will be an important mechanism for the vision of conservation, 
restoration and management of fish and wildlife habitat in the United 
States and Canada. It is an important step in preserving Detroit River 
ecology for generations to come.
    We applaud Congressman John Dingell for introducing this 
legislation and give our support to it.
                                 ______
                                 
    Mr. Gilchrest. Ms. Helen Taylor?

 STATEMENT OF HELEN TAYLOR, STATE DIRECTOR, MICHIGAN CHAPTER, 
                     THE NATURE CONSERVANCY

    Ms. Taylor. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Helen Taylor and I am the State 
Director of the Michigan Chapter of The Nature Conservancy, and 
on behalf of 34,000 members of the Michigan Chapter, I am 
delighted to be here to testify in support of Congressman 
Dingell's H.R. 1230, to establish the Detroit River 
International Wildlife Refuge.
    For those of you who aren't familiar with The Nature 
Conservancy, we are a nonprofit private conservation 
organization. We are the largest in the U.S. and we have over a 
million members and over 3,000 staff scattered throughout 50 
States and 28 countries. Our mission is the protection of the 
plants and animals and natural communities that make up the 
diversity of life, so we are biodiversity focused and we do 
that through protecting the lands and waters that these 
creatures and plants and things need to survive.
    We have been around for 50 years. We have protected over 12 
million acres in the U.S. and over 80 million acres overseas. 
We are probably best known for our objective and scientific 
science-based approach to our conservation action, as well as 
our collaborative non-confrontational style. Because of that 
non-confrontational style, you may not hear from us that often, 
so you know that when we do step forward to say something, you 
can be sure that it is important and that it is coming from our 
science work that we think that this is a very important issue.
    In 1996, we started an effort to scientifically analyze and 
identify and prioritize the most important places for 
biodiversity in the Great Lakes ecoregion, and we are doing 
that in 64 ecoregions throughout the U.S. and in all the 
countries that were active.
    This ecoregion that you can see on this map here in the tan 
is defined by climate and physical land formation, which are 
the things that we think most influence where creatures and 
critters and plants live, and in that context, we took two-and-
a-half years, involved 140 different partners, scientists, 
institutions. This was a big deal. We identified over 400 
places in the Great Lakes ecosystem that are the most critical 
places to protect from here on out, and it is our blueprint for 
action in the Great Lakes. And lo and behold, as you can see, 
the Detroit River corridor emerged in that process and that is 
why I am here today.
    This next map blows that up a little bit bigger. The 
Detroit River corridor, as you have heard from my colleagues, 
emerged for a number of different reasons, but primarily we are 
very interested in protecting those coastal marshes and 
wetlands for the protection of the neotropical migratory birds 
and waterfowl that use this corridor. You know tropical 
migratory birds is a fancy term for those little critters that 
take that long journey from as far away as South America all 
the way to North America. And so it becomes much more of an 
international issue than Canada and the U.S. It is 
international in a very global sense.
    In addition, there are freshwater mussel species that are 
very important, 65 species of fish that live there, butterflies 
that use this as a migratory route. It is critical in many, 
many ways.
    Probably one of the most stirring examples of its 
biological richness is the lake sturgeon that was mentioned 
before. This is the largest species of fish in the Great Lakes. 
It grows to be as old as 100 to 150 years old, and this armor-
plated creature has existed actually in North American waters 
for millions of years. There are 20 States that historically 
have had the lake sturgeon in their waters, and 19 of them, 
including Michigan, identify it as a threatened species. It is 
essentially a very, very important part of the equation in the 
protection of the entire Great Lakes ecoregion.
    Now, I am going to give you--you might wonder, if we 
identified 400 areas that are important for the protection of 
biodiversity in the Great Lakes, okay, so what is the big deal 
if we lose one of them? Why pay attention to this piece? I am 
going to give you an analogy, and I think it is an appropriate 
analogy given that we are talking about Detroit, the auto 
making capital of the world.
    Imagine your car out in your driveway, and every morning, 
you go out and you lift the hood and you take a part out, maybe 
just a nut, maybe just a bolt, maybe a wire, something small. 
And if every day you do that, your vehicle probably would work 
for a while, and in fact, it may work very well for quite a 
while, but eventually, it would stop working.
    Think about nature in the same way. This ecosystem is a 
vast tapestry of threads and interconnected life cycles and 
functions and processes in a delicate balance and we do not 
want to tinker with nature. We do not know which part is the 
part or combination of parts that is going to render it 
inoperative.
    And so when you think of that analogy, you want to think 
about protecting every piece of that puzzle and that equation, 
and the Detroit River corridor has emerged as a very critical 
piece of that picture.
    Population growth and development at a remarkable level has 
still not kept the Detroit River corridor from maintaining a 
biological richness, and the lands and waters, the life that 
exists beneath the surface of the water and in the air and in 
the land in this area does not recognize government boundaries 
and jurisdictions, but the people in the Great Lakes ecoregion 
do. Individuals and organizations and institutions have worked 
in the context of the Great Lakes ecosystem for years, and H.R. 
1230 represents an outstanding opportunity to continue that 
international collaboration.
    The Nature Conservancy respectfully requests that the 
Committee support H.R. 1230 and enable us to protect these 18 
miles of rich biological landscape. Thank you, Mr. Chairman. 
That concludes my remarks.
    Mr. Gilchrest. Ms. Taylor, you did not disappoint us. You 
waxed most eloquently and poetically--
    [Laughter.]
    Mr. Gilchrest. --and the metaphors will be remembered for 
some time to come. Mr. Underwood says you have a degree in 
philosophy. Thank you very much.
    [The prepared statement of Ms. Taylor follows:]

Statement of Helen Taylor, State Director, Michigan Chapter, The Nature 
                              Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in support of 
H.R. 1230, legislation to create an international wildlife refuge along 
the lower Detroit River.
Introduction and Background
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We currently have programs in 
all 50 states and in 28 foreign countries. To date we have protected 
more than 11 million acres in the 50 states and Canada, and have helped 
local partner organizations preserve 80 million acres overseas. The 
Conservancy owns and manages 1,600 preserves throughout the United 
States--the largest private system of nature sanctuaries in the world. 
Sound science and strong partnerships with public and private 
landowners to achieve tangible and lasting results characterize our 
conservation programs.
Protecting biodiversity in the Great Lakes Region
    In 1996, The Nature Conservancy launched a collaborative initiative 
to identify high priority biodiversity conservation sites throughout 
the Great Lakes region. The Conservancy oriented its work based on 
ecoregions--large areas defined by the influences of shared climate and 
geology, the main factors that determine broad-scale distribution of 
plants and animals. The Great Lakes ecoregion--which includes major 
portions of Canada and the United States--is one of 64 ecologically 
distinct regions of the continental United States. For each of these 
ecoregions, the Conservancy is developing a detailed plan that 
identifies the places that need to be protected to conserve native 
biodiversity for the long term.
    The Great Lakes ecoregional plan, in essence, provides a blueprint 
for protecting the native species, natural communities and aquatic 
systems characteristic of the Great Lakes region. Through this 
systematic approach to prioritize conservation action, we are creating 
a comprehensive vision for Great Lakes conservation that addresses the 
full range of biological diversity.
The Ecological Importance of the Detroit River-Lake St. Clair Ecosystem
    The coastal marshes and islands of the lower Detroit River emerged 
as a critically important conservation opportunity in the Nature 
Conservancy's science-based ecoregional plan for the Great Lakes 
region.
    The Detroit River plays a crucial role in the Great Lakes 
ecosystem. Despite considerable population growth and development, the 
Detroit River's coastal wetlands and waterway continue to offer 
critical habitat for numerous species of Great Lakes fish and wildlife. 
The area is recognized as being an important migratory corridor for 
neotropical migrating birds and waterfowl.
    Other institutions have identified the Detroit River-Lake St. Clair 
ecosystem as a key area of biodiversity. For example, in 1998 the 
United States Environmental Protection Agency and Environment Canada 
hosted a bilateral ``State of the Lakes Ecosystem Conference'' that 
identified 20 areas in the Great Lakes region recognized as having 
``exceptionally high ecological values which warrant exceptional 
attention to protect them from degradation.'' The conference identified 
the 20 areas requiring ``exceptional attention'' as ``Biodiversity 
Investment Areas.'' The Detroit River-Lake St. Clair ecosystem was 
identified as one of those 20 Biodiversity Investment Areas based on:
    <bullet> LIts high levels of avian, aquatic, and botanical 
diversity;
    <bullet> LThe presence of rare and threatened species; and
    <bullet> LIts role as an important migration corridor.
Freshwater Biodiversity in the Detroit River
    Though we are a nation devoted to the beauty and recreational 
values of our streams, creeks, and rivers, few of us realize that the 
diversity of life in freshwater systems in the U.S. is exceptional, 
even when compared with the tropics. However, two centuries of land-use 
alterations, dam construction, introductions of non-native species, 
pollution, and water withdrawals have lead to the accelerated and, in 
many cases, irreparable losses of freshwater species.
    In a 1998 publication entitled Rivers of Life, The Nature 
Conservancy identified several groups of freshwater species in 
particular peril, including:
    <bullet> L40 percent of freshwater fishes and amphibians are at 
risk;
    <bullet> LTwo-thirds of freshwater mussel species are at risk of 
extinction; almost 1 in 10 may already have vanished forever.
    The rivers of the Great Lakes ecoregion support numerous rare, 
threatened or endangered aquatic species. Several rare species of 
native freshwater mussels and more than 65 species of fish live in the 
waters of the Detroit River. As the findings in Rivers of Life 
indicate, freshwater mussels are some of the most imperiled species in 
the U.S. Unfortunately, the rare mussels in the Detroit River may not 
be viable, in part due to the introduction of non-native zebra mussels.
    Perhaps the most stirring example of the river's biological 
richness is the presence of lake sturgeon. The lake sturgeon's historic 
range in the U. S. includes the waters of 20 states, 19 of which list 
it as a threatened species, including Michigan. In addition, the U.S. 
Fish and Wildlife lists lake sturgeon as a species of special concern.
    The lake sturgeon is the largest species of fish in the Great Lakes 
ecosystem, and sport fishers in the United States and Canada frequently 
encounter lake sturgeon in the Detroit River. These primitive, armor-
plated fish can attain ages of 100 to 150 years, and grow to impressive 
lengths. Though freshwater sturgeon first appeared in North American 
waters some 400 million years ago, during the Devonian Age (or Age of 
Fishes), much of their basic ecology, life history, and population 
dynamics in the Great Lakes remains unknown. However, seven historical 
spawning sites have been identified in the Detroit River.
The Detroit River is a Major Corridor for Migrating Birds
    It has long been recognized that the Detroit River-Lake St. Clair 
ecosystem plays an important role in seasonal migration for a number of 
avian species:
    <bullet> LThe river is an ecoregionally important stopover for site 
for hundreds of species of landbirds, shorebirds, and raptors; and,
    <bullet> LThe river's remaining coastal marshes are especially 
important for waterfowl, providing shelter and food for more than three 
million migrating waterfowl each year and 29 different species.
    Among vulnerable species, birds are an especially important focus 
for the Nature Conservancy's Great Lakes ecoregional plan because their 
distribution, relative abundance, and habitat requirements are 
comparatively well known. Nature Conservancy scientists therefore have 
been working in the Great Lakes region to identify breeding locations 
for birds of conservation concern, and to ascertain the important 
stopover and wintering sites for landbirds, raptors, shorebirds, and 
waterbirds.
    Of the approximately 80 stopover sites named as important bird 
areas, most are concentrated along the shore of the Great Lakes. The 
Great Lakes ecoregion, along with ecoregions along the Gulf Coast, the 
northern Atlantic coast, and the Pacific coast, may support some of the 
highest concentrations of stopover sites on the continent.
An International Approach
    To prevent degradation of this rich biological resource, government 
agencies in the U.S. and Canada, conservation groups, and citizen's 
groups are working together to protect the Detroit River's rare and 
endemic species and natural communities.
    The proposed Detroit River International Wildlife Refuge is an 
outstanding example of diverse interests working together in 
partnership for the common good of all. The proposed refuge would 
protect over 18 miles of land, islands, and other natural features 
along the Detroit River, including many areas of biologically 
significance that the Conservancy has targeted for the focus of our 
work.
    The proposed Detroit River International Wildlife Refuge represents 
an outstanding opportunity to protect some of the richest areas in the 
Great Lakes via a remarkable international partnership. The Nature 
Conservancy requests Committee support of H.R. 1230.
    Thank you for your attention. I would be happy to answer any 
questions you may have.
                                 ______
                                 

    [Attachments to Ms. Taylor's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3261.008
    
    [GRAPHIC] [TIFF OMITTED] T3261.009
    
    Mr. Gilchrest. Mr. Tori, we expect no less from you, sir.
    Mr. Tori. Well, I won't do any Italian opera singing, that 
is for sure.
    [Laughter.]

       STATEMENT OF GILDO M. TORI, DUCKS UNLIMITED, INC.

    Mr. Tori. Mr. Chairman and members of the Subcommittee, it 
is a pleasure to be here this morning. My name is Gildo Tori 
and I am the State and Federal Coordinator for Ducks 
Unlimited's Great Lakes Atlantic Regional Office in Ann Arbor, 
Michigan. I am a professional certified wildlife biologist and 
have training and experience in wetlands and waterfowl 
conservation. I have worked with DU since 1997, and before that 
worked 15 years with the Ohio Division of Wildlife as a 
wetlands and waterfowl ecologist.
    DU appreciates the opportunity to speak to you today about 
the concepts embodied in H.R. 1230, the Detroit River 
International Wildlife Refuge Establishment Act. Ducks 
Unlimited supports the establishment of the Detroit River 
International Wildlife Refuge for the following four reasons.
    First, this refuge would expand upon the existing Wyandotte 
National Wildlife Refuge and provide a more secure anchor for 
conservation efforts in this region.
    Two, the new refuge would provide a unique opportunity for 
international cooperation between the U.S. and Canada 
government and nongovernmental partners to protect and restore 
this international treasure.
    Third, the synergy provided by this refuge would aid and 
assist private nonprofit conservation groups to increase 
conservation efforts in this region.
    And four, this refuge would protect the last remaining 
wetlands and water bodies in this important region for the 
benefit of our wildlife resources and for citizens on both 
sides of the border.
    As mentioned before, the Detroit River, Lake St. Clair, and 
the southwestern Lake Erie and adjacent wetlands are historical 
and critical habitats for migratory birds. Dr. John Hartig gave 
you the view of it being a funnel for the two major flyways in 
North America, the Mississippi and the Atlantic flyway, and we 
have documented anywhere from three to five million waterfowl 
using this area during spring and fall migration, and also 
approximately 29 species of waterfowl.
    So it is a critical and important place for waterfowl, but 
Ducks Unlimited is concerned about more than just ducks, I 
guess if you want to say. We are also concerned about the other 
species that use this area, and there have been over 300 bird 
species documented in the Detroit Windsor area and over 150 of 
those breed in the region. So it critically important, not just 
for ducks but for many species of wildlife.
    Unfortunately, only 3 percent of the original wetlands 
along the U.S. side of the border remain and about 1 percent of 
the shoreline is not armored with steel or concrete, so it has 
been highly impacted by human development. Yet in spite of 
these developments and alterations, the Detroit River continues 
to provide good habitat for migratory birds.
    As mentioned earlier, too, the wild celery is a critical 
component of the Detroit River and it is increasingly coming 
back and the birds are coming back. In fact, this morning as I 
flew here and flew right over the Detroit River, you could see 
the wild celery coming back, and as Helen mentioned, that is 
critical to have the plants support the wildlife population.
    The Detroit River and surrounding water areas have also 
been listed as key areas for several organizations. It is a 
high priority region for Ducks Unlimited and our continental 
conservation plan. It is one of 34 special focus areas under 
the North American Waterfowl Management Plan. It is now part of 
the Western Hemisphere Shorebird Reserve Network. And the 
Canadian side is also part of the Eastern Habitat Joint Venture 
of the North American Waterfowl Management Plan, and our sister 
organization, Ducks Unlimited, has been working on this side of 
the river and is very excited about the potential for the 
international wildlife refuge and stands ready to support our 
efforts here.
    Protection and restoration of habitat for fish and wildlife 
in Michigan waters of this waterway is a high priority for all 
of these agencies and for many nongovernmental organizations. 
Currently, there is a newly established partnership of 19 
different groups and organizations that support the wetland 
restoration and protection in the region, and that highlights 
the importance of the area but it also says that there are a 
lot of folks out there that support this locally and are 
willing to stand with the Fish and Wildlife Service and other 
organizations to do their work and do their share.
    In conclusion, Ducks Unlimited is here today to pledge our 
support to you and this Congress as you continue your excellent 
efforts to protect our country's natural heritage. We urge you 
to pursue the development of the Detroit River International 
Wildlife Refuge for the benefit of the citizens of this country 
and also of our friends in Canada and for the benefit of fish 
and wildlife in the Great Lakes ecosystem. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Tori.
    [The prepared statement of Mr. Tori follows:]

           Statement of Gildo M. Tori, Ducks Unlimited, Inc.

    Mr. Chairman, members of the subcommittee, my name is Gildo M. 
Tori. I am the State and Federal Coordinator for Ducks Unlimited Inc.'s 
(DU) Great Lakes/Atlantic Regional Office in Ann Arbor, Michigan. I am 
a professional certified wildlife biologist with training and 
experience in wetlands and waterfowl ecology. I have worked for DU 
since 1997, before which I worked for the Ohio Division of Wildlife for 
15 years as a wetlands ecologist.
    Ducks Unlimited, Inc. was founded in 1937 by concerned and 
farsighted sportsmen and conservationists. It has grown from a handful 
of people to an organization of more than 1,000,000 supporters who now 
make up the largest wetlands and waterfowl conservation organization in 
the world. DU has conserved more than 9 million acres of wildlife 
habitat in the U.S., Canada and Mexico. DU prides itself on its work 
with private landowners and our many partnerships with federal, state, 
and local governments and non-governmental organizations.
    DU appreciates the opportunity to speak to you today regarding 
concepts embodied in H.R. 1230, the Detroit River International 
Wildlife Refuge Establishment Act. Ducks Unlimited supports the 
establishment of the Detroit River International Wildlife Refuge for 
the following reasons: 1. This refuge would expand upon the existing 
Wyandotte Refuge, and provide a more secure anchor for conservation 
efforts in the region, 2. The new refuge would provide a unique 
opportunity for international cooperation between the U.S. and Canada 
among governmental and non-governmental partners to protect and restore 
this international treasure, 3. The synergy provided by this refuge 
would aid and assist private non-profit conservation organizations to 
increase conservation efforts in this important region, and 4. This 
refuge would protect the last remaining wetlands and water bodies in 
this important region, for the benefit of our wildlife resources and 
for the improvement in the quality of life on both sides of the border.
    The Detroit River, Lake St. Clair, southwestern Lake Erie and the 
adjacent wetlands and tributaries are a historical and critical habitat 
base for our continent's waterfowl and wildlife resources. The Detroit 
River is the crossroads for birds migrating in the Atlantic and 
Mississippi flyways, basically serving as a funnel for migrating birds 
during the spring and fall. More than 300 bird species have been 
documented in the Detroit-Windsor area, with approximately 150 of those 
nesting in the region. Approximately 3 million ducks, geese and swans 
migrate annually through the Great Lakes, with a majority passing 
through the eastern portion of Michigan, Ontario and Ohio (Figure 1). 
The Detroit River, Lake St. Clair and Lake Erie are critical migration 
areas for canvasbacks and other diving ducks, and are the most 
important staging areas for black ducks on the continent (Figure 2). 
Bald eagles nest in the area and twenty-seven species of migrating 
swans, ducks, and geese have been identified.
    Less than 3% of the original wetlands along the U.S. side of the 
Detroit River remain and only 1% of the U.S. shoreline is not armored 
with concrete or steel. Yet, in spite of intense development impacts, 
the lower Detroit River continues to provide critical habitat for 
waterfowl and other migratory birds. Extensive beds of extremely rare 
wild celery and undeveloped islands and shoals support one of the 
nation's most productive sport fisheries for walleye and support 117 
other species of fish. Remaining islands are extremely vulnerable to 
development as evidenced by recent efforts to develop Humbug Island. 
Islands in the river exhibit a wide range of topographic features 
subject to the influence of the water levels in the Detroit River.
    The Detroit River and the surrounding water and wetland resources 
have received many special designations based on its importance to 
migrating waterfowl, neotropical migrant songbirds, raptors, fish 
resources, and other wildlife.
    For example:
    1. LThis region is a high priority area for Ducks Unlimited's under 
its new Conservation Plan for North American waterfowl.
    2. LIt is a special focus area under the North American Waterfowl 
Management Plan, one of 24 critical waterfowl areas listed by the U.S. 
Fish and Wildlife Service.
    3. LThis region is listed as part of the Western Hemisphere 
Shorebird Reserve Network, site of regional importance.
    4. LThe Canadian side of the river is located in the Eastern 
Habitat Joint Venture of Canada, under the North American Waterfowl 
Management Plan.
    5. LThe Detroit River is located within the Coastal Zone of 
Michigan, as identified by the U.S. Department of Commerce.
    In global perspective, the waterway contains remnant Great Lakes 
coastal marshes, lake plain prairies, oak savannahs, extensive beds of 
wild celery, and remnants of a diverse freshwater mussel community. For 
these and other biological reasons, and in addition to the above 
designations, the Detroit River was recognized by The Nature 
Conservancy as having globally significant biological diversity that 
should be conserved and enhanced by Canada and the United States under 
the 1992 United Nations Convention on Biological Diversity; by the 
State of Michigan under its Biodiversity Conservation Act; and by the 
binational Detroit River Remedial Action Plan. The latter plan lists 
loss of fish and wildlife habitat as an impaired water use that must be 
remediated to delist the river as an Area of Concern (AOC).
    In 1997, this waterway was designated a focus area for habitat 
restoration by the Great Lakes Ecosystem Team of the U.S. Fish and 
Wildlife Service. In 1999, Lake St. Clair and the Detroit River were 
designated a focus area by the Midwest Natural Resources Group of 14 
federal agencies. In 2000, the lower Detroit River and the western 
shore of Lake Erie were designated part of the Western Lake Erie 
Biodiversity Investment Area by the U.S. Environmental Protection 
Agency. In 2001, Canada and the U.S. agreed upon a Conservation Vision 
for the Lower Detroit River Ecosystem, including a Detroit River 
International Wildlife Refuge.
    Protection and restoration of habitat for fish and wildlife in 
Michigan waters of this waterway is high priority for federal, state 
and provincial agencies, Ducks Unlimited, The Nature Conservancy, and 
numerous citizens groups. The continued use of this region as a major 
migration corridor for waterfowl, other birds, and fish coupled with 
the dramatic decline in habitat availability underscores the grave 
importance of conserving the remaining habitat areas. Designation of an 
international wildlife refuge will serve as a direct mechanism to 
conserve habitat and as a catalyst to focus conservation attention to 
this region.
    Currently, a newly established partnership has formed in support of 
wetland conservation in this region. Included in that partnership are 
federal, state and local agencies, private corporations and 
individuals, and non-governmental organizations, including the 
following: Algonac State Park, City of Monroe, Community Foundation for 
Southeast Michigan, Consumers Energy, Detroit Edison, Ducks Unlimited, 
Federated Garden Clubs of Michigan, Greater Detroit American Heritage 
River Initiative, Grosse Isle Nature and Land Conservancy, Michigan 
Department of Natural Resources, Pheasants Forever, National Steel 
Corporation, The Nature Conservancy, River Raisin Public Advisory 
Council, Solutia, Inc, Southeast Michigan Land Conservancy, Wildlife 
Habitat Council, Pt. Mouille Waterfowl Festival Committee and the U.S. 
Geological Survey. The importance of this region is indicated in the 
diversity of groups represented in this partnership. The Detroit River 
and the surrounding ecosystem is worthy of protection as a wildlife 
refuge.
Conclusion
    Ducks Unlimited is here today to pledge our support to you and this 
Congress as you continue excellent efforts to protect our country's 
natural heritage. We urge you to pursue the development of the Detroit 
River International Wildlife Refuge, for the benefit of citizens in the 
United States and Canada, and for the benefit of wildlife, fish and our 
Great Lakes ecosystem. Thank you.
                                 ______
                                 

    [Attachments to Mr. Tori's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3261.001
    
    [GRAPHIC] [TIFF OMITTED] T3261.002
    
    Mr. Gilchrest. Mr. Nomsen?

STATEMENT OF DAVE NOMSEN, VICE PRESIDENT OF GOVERNMENT AFFAIRS, 
                       PHEASANTS FOREVER

    Mr. Nomsen. Thank you, Mr. Chairman, members of the 
Committee. My name is Dave Nomsen. I am Vice President of 
Governmental Affairs for Pheasants Forever, based in 
Alexandria, Minnesota, and I am very pleased to be here today 
on behalf of Dr. Gordon Guyer and Pheasants Forever.
    Dr. Guyer is currently serving as Chairman of the Board for 
Pheasants Forever, and previously he was President of Michigan 
State University and also the Director of the Michigan 
Department of Natural Resources in the Department of 
Agriculture in Michigan. Thus, he is very familiar with the 
proposed refuge area.
    Pheasants Forever is very pleased to offer our complete 
support for H.R. 1230, establishing the Detroit River 
International Wildlife Refuge. We believe that the refuge will 
provide tremendous benefits to sportsmen and sportswomen. We 
are pleased to see that hunting, fishing, wildlife observation 
and photography, and environmental education are specifically 
listed as priority uses of the proposed refuge. We believe that 
H.R. 1230 is a significant piece of legislation and, when 
completed, will offer tremendous wildlife conservation and 
environmental benefits to not only our nation's sportsmen, but 
society as a whole.
    In the attached letter to my testimony from Dr. Guyer to 
Congressman Dingell, he points out how important the 
establishment of the refuge is both in terms of wildlife and 
water quality enhancement in the area.
    Preservation of the lower Detroit River ecosystem through 
H.R. 1230 can ensure the future of fine waterfowling in this 
area and the millions who live nearby will benefit from the 
refuge's wildlife. Preserving the area will also improve water 
quality. Healthy wetland ecosystems can absorb nutrients and 
contaminants from runoff, reduce sediment loads, improving 
water quality not only for Michigan but also for the entire 
Lake Huron and Lake Erie watershed.
    H.R. 1230 will complement Pheasants Forever's activities in 
Michigan. We are pleased to see provisions providing protection 
for land owners' decisions regarding land acquisition. At 
Pheasants Forever, all of our projects are voluntary in nature 
and completed with willing farmers and land owners. We believe 
that by incorporating these provisions, local and community 
support for the refuge will be strengthened.
    Mr. Chairman, I thank you for the opportunity to testify in 
support of H.R. 1230. The Detroit River International Wildlife 
Refuge can benefit this nation's sportsmen and sportswomen, all 
conservationists, and everyone interested in a healthy 
environment. Please feel free to contact us for any additional 
information that we can provide. I would be happy to take 
questions at the appropriate time. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Nomsen.
    [The prepared statement of Mr. Guyer follows:]

Statement of Dr. Gordon Guyer, Chairman of the Board, Pheasants Forever

    Mr. Chairman, members of the Committee, my name is Dave Nomsen. I 
am Vice-president of Governmental Affairs for Pheasants Forever from 
Alexandria, MN. I am pleased to be here today on behalf of Dr. Gordon 
Guyer and Pheasants Forever.
    Dr. Guyer is currently serving as Chairman of the Board for St. 
Paul, MN based Pheasants Forever. Dr. Guyer is President Emeritus of 
Michigan State University and previous Director of the Department of 
Natural Resources and the Department of Agriculture in Michigan. As 
Chairman of the Board for Pheasants Forever, Dr. Guyer represents 
nearly 100,000 of our nations'' sportsmen and sportswomen and Pheasants 
Forever 550 chapters nationwide in 28 states. Pheasants Forever was 
founded in 1982 and annually completes in excess of 32,000 wildlife 
habitat conservation projects in cooperation with willing farmers and 
landowners and natural resources agencies.
    Pheasants Forever is pleased to offer our complete support for H.R. 
1230 establishing the Detroit River International Wildlife Refuge. We 
believe that this refuge will provide tremendous benefits to sportsmen 
and sportswomen. We are pleased to see that hunting, fishing, wildlife 
observation and photography, and environmental education are 
specifically listed as priority uses of the proposed refuge.
    We believe that H.R. 1230 is a significant piece of legislation and 
when completed will offer tremendous wildlife conservation and 
environmental benefits to not only our nations sportsmen, but society 
as a whole. In the attached letter to Representative Dingell, Dr. Guyer 
points out how important the establishment of the refuge will be in 
terms of both wildlife and water quality enhancement. Dr. Guyer points 
out the value of this area as a waterfowl migration corridor and has 
personally enjoyed some of the fine waterfowling experiences this area 
offers. Preservation of the Lower Detroit River ecosystem through H.R. 
1230 can ensure the future of fine waterfowling in this area and the 
millions who live nearby will benefit from the refuges wildlife. The 
refuge will benefit numerous species of waterfowl and fish, provide 
habitat for other birds, butterflies, and mammals. Preserving this area 
will also improve water quality. Healthy wetland ecosystems can absorb 
nutrients and contaminants from runoff and reduce sediment loads 
improving water quality not only for Michigan but also for the entire 
Lake Huron and Lake Erie watershed.
    H.R. 1230 will complement Pheasants Forever's activities in 
Michigan. Chapters complete projects that while focused on improving 
pheasants and pheasant habitat, these projects reduce soil erosion, 
benefits numerous species of wildlife, and improve water quality. Many 
of these projects are within the watershed above the Lower Detroit 
River and involve the successful Conservation Reserve and Wetland 
Reserve Programs. We believe that the addition of the Detroit River 
International Wildlife Refuge will move us toward a more comprehensive 
land management program befitting Michigan farmers and landowners, 
sportsmen and sportswomen, and society as a whole. We are pleased to 
see provisions providing protection for landowners decisions regarding 
land acquisition. At Pheasants Forever all of our projects are 
voluntary and completed with willing farmers and landowners. We believe 
that by incorporating these provisions, local and community support for 
the refuge will be strengthened.
    Mr. Chairman, thank-you for the opportunity to testify in support 
of H.R. 1230. The Detroit River International Wildlife Refuge can 
benefit this nations sportsmen and sportswomen, all conservationists, 
and everyone interested in a healthy environment. Please feel free to 
contact us for additional information and support regarding these 
issues. I would be happy to take questions at the appropriate time. 
Thank-you.
                                 ______
                                 
    [A letter submitted for the record by Mr. Guyer follows:]

                             June 18, 2001

The Honorable John D. Dingell
United States House of Representatives
Washington, D.C. 20515

Dear Representative Dingell:

    It has been some time since I renewed acquaintances in Washington 
DC but it was certainly a privilege to have an opportunity to once 
again renew friendships with you last week and again admire the 
terrific comprehension you have for the importance of conservation 
programs and wildlife issues. You represent Michigan so appropriately 
and are one of the individuals we all look forward to supporting as you 
maintain your fish, wildlife and conservation priorities. We are very 
fortunate in Michigan!
    More importantly, I wanted to formalize my excitement and special 
support for your initiative on behalf of establishing a Southeastern 
Michigan International Wildlife Refuge. Certainly H.R. 1230 is the most 
significant piece of legislation that will not only enhance wildlife, 
but more importantly will be an important adjunct to maintaining and 
enhancing water quality in the entire lower Great Lakes watershed. My 
past experiences as Director of the Department of Natural Resources and 
the Department of Agriculture, and as President of Michigan State 
University have given me an opportunity to appreciate the fact that 
this area represents the greatest Midwest flyway for waterfowl and is 
also the drainage from some of the most productive farmland in the 
Midwest. Your creative philosophy for this Refuge will not only protect 
these important resources, but will be a significant contribution to 
not only Michigan, but the entire southern Lake Huron and Lake Erie 
watershed.
    John, whatever I can do to support you in this regard, be sure and 
let me know. Thanks again for your hospitality.

                           Very truly yours,

                            Dr. Gordon Guyer

                                Chairman

                                 ______
                                 
    Mr. Gilchrest. Thank you all for your testimony and for 
your support. I have just a couple of questions.
    Can anyone tell me the potential acreage of this refuge and 
the potential cost involved in acquisition? I know there is a 
myriad of public and private sector interests in this. Some of 
the land might come as donations. There could be easements on 
some of that. Does anyone know the potential? You have outlined 
a number of islands and shorelines and wetland areas that are 
in it. It would be helpful for us to have some ballpark figure 
as to the number of acres and an approximate cost. Yes, sir?
    Mr. Jakcsy. Mr. Chairman, in terms of the boundaries, the 
refuge will include all land from the American side of the 
river west to Jefferson Avenue, which is a main corridor along 
this 18-mile stretch of the lower Detroit area. It will run 
from the northern border of Mud Island all the way down to the 
southern border of Sterling State Park, and it encompasses 
approximately 5,451 acres to be included in the boundaries of 
the refuge.
    Mr. Gilchrest. That is the U.S. side.
    Mr. Jakcsy. On the U.S. side.
    Mr. Gilchrest. Is there approximately the same number of 
acres on the Canadian side?
    Mr. Jakcsy. That, I do not know.
    Mr. Gilchrest. Dr. Hartig?
    Mr. Jakcsy. I would say probably.
    Mr. Gilchrest. Probably?
    Mr. Jakcsy. Yes.
    Mr. Gilchrest. So we are looking in the neighborhood of 
about 10,000 acres?
    Mr. Jakcsy. I think that is fair to say. It is less 
developed on the Canadian side, so I would say it would be 
equal to what we have here.
    Mr. Gilchrest. Okay.
    Mr. Hartig. That would be the maximum number, Mr. Chairman.
    Mr. Gilchrest. Yes.
    Mr. Hartig. Probably, and again, as Congressman Dingell 
pointed out, this is voluntary. For example, if--one of the 
large islands just north of Grosse Ile is Fighting Island, 
which is owned by BASF Corporation, and if they wanted to--and 
they are doing some of that now--managing much of those lands 
for habitat conservation, if they wanted to enter into a 
cooperative agreement, they could be managing their lands in 
support of the goals of the international wildlife refuge. So 
it depends upon if they would want to do that.
    Another example is Solutia, a chemical industry on the 
lower end of the Detroit River. They are doing some upland 
habitat work with Wildlife Habitat Council and they are doing 
some soft engineering of shorelines. They could be doing that 
not only for their internal goals but for the wildlife refuge. 
So you could--
    Mr. Gilchrest. You say they are doing some soft engineering 
for shorelines?
    Mr. Hartig. Yes.
    Mr. Gilchrest. What does that mean?
    Mr. Hartig. You heard Mr. Tori say that much of the Detroit 
River shoreline is hardened with concrete, break wall, and 
steel sheet piling. In fact, of the U.S. side, 31 of the 32 
miles is very hardened.
    Soft engineering says you don't need concrete and steel 
everywhere. You need it where you need to bring in freighters 
and cruise ships and things like that, but where you don't need 
it, you can change the slope, use varied size of rock, and you 
can use plants, and you can soften the shoreline and get 
habitat value out of it. Hard engineering, concrete and steel, 
has no habitat value, as you know, but we feel we can reclaim 
some of the shoreline for the benefits of the refuge.
    Mr. Gilchrest. I see.
    Mr. Hartig. An example of that, Mr. Jakcsy told you they 
are already doing that on their property in support of wildlife 
conservation. BASF Corporation is doing it on the mainland.
    Mr. Gilchrest. So you are taking some of that rip-rap, hard 
rock or steel shoreline, you are taking it apart, removing it, 
and replacing it with marsh grass or something of this nature?
    Mr. Hartig. In some cases, marsh grass. Engineers are very 
important, but they like straight lines. We don't always want 
straight lines in habit. We want some sinuosity of the 
shoreline. We would like to change the slope. We would like to 
add some natural vegetation and get some habitat value to 
support this unique biodiversity that--
    Mr. Gilchrest. Dr. Hartig, when you are talking about 
engineering a soft shoreline, you know, in my mind, you have 
electrical engineers, you have chemical engineers, you have all 
kinds of engineers. So are these people doing that somehow 
environmental engineers that are trying to understand the 
design of the mechanics of natural processes, to put it back in 
place the way it was? What kind of engineers are doing this?
    Mr. Hartig. They are civil and environmental engineers. 
They are very much interested in the shoreline, in hydraulics 
and ecology, and it is the next generation of engineers to do 
it.
    Mr. Gilchrest. I see.
    Mr. Hartig. One of the most important things, there is 
habitat value in it, but you can also save money for shoreline 
owners, whether it is an industry, whether it is a business or 
a community.
    Mr. Gilchrest. Yes, sir?
    Mr. Tori. I just wanted to comment on that. They are civil 
and environmental engineers in our office in Ducks Unlimited, 
and we actually have a staff and that is exactly what they do, 
is they do a lot of restoration work and take hard shorelines 
and engineer them back and try to emulate the natural processes 
that existed prior to the alterations. So it is a growing and 
rapidly developing field and there are a lot of creative 
engineers out there that just love to put back what nature 
created, so it is an important aspect of our office.
    Mr. Gilchrest. Great. Thank you. Maybe we should contract a 
number of these environmental engineers and have them do a 
hydrologic study of the United States--
    [Laughter.]
    Mr. Gilchrest. --and give some estimate as to--
    Mr. Tori. We would love to do that for you.
    Mr. Gilchrest. We will work with John Dingell on that one.
    Ms. Taylor, I had a question for you and it went out of my 
head. I will get back to it. One more question and then I will 
yield to Mr. Underwood. Two things, I guess. Has Nature 
Conservancy purchased any land here?
    Ms. Taylor. Yes. We recently purchased Calf Island, which 
is at the southern end. Is it marked there? Yes, right there.
    Mr. Gilchrest. Oh, I see.
    Ms. Taylor. Which eventually we anticipate handing over to 
the U.S. Fish and Wildlife to be part of this refuge.
    Mr. Gilchrest. Would that be a donation or a sale?
    Ms. Taylor. Actually, we purchased it, and through a NAWCA 
grant, we would be reimbursed, but that grant is under 
consideration at this stage.
    Mr. Gilchrest. I see. Do you have any statement or comment 
or feeling about Section 7 of the bill, the indemnification 
aspect of that?
    Ms. Taylor. We don't have a position on that. I defer to my 
colleagues on that, actually. But overall, we feel the bill 
itself is a very important bill, so we support it in total, but 
on that particular issue, we don't have a position.
    Mr. Gilchrest. Given the nature of the complexity of this 
proposed refuge, in that it won't all come at the same time, I 
assume, there will be pieces that will come into it over a 
period of time, some donated, some with easements, some with 
outright purchase, and that Mr. Ashe from the administration 
had some very strong reservations about Section 7, especially 
with the aspects of the liability, does anyone on the panel 
want to comment on that? Do you have any idea how that can be 
reconciled, changed? Mr. Dingell?
    Mr. Dingell. I apologize to the Committee. I should have 
addressed this. In a nutshell, that is entirely voluntary. 
There is no requirement here that there be any absolution given 
to anyone with regard to donations or sale of land by the 
Federal Government. This is something which is vested in the 
President. I have made some suggestions to the Committee with 
regard to a possible redraft to move this discretion down to 
the Secretary, which would be exercised through the Director of 
Fish and Wildlife.
    Our problem here, and the reason for this language in the 
bill, Mr. Chairman, is that this is an old industrial area. 
Industry began to locate here in the 1820's and 1830's. It was 
shipbuilding, chemicals, timber, furniture, cigars at one 
point, chemicals, mostly sodium-based chemicals, but others, 
oil refining, steel mills, and things of that kind. So we have 
been kind of harsh on that land.
    So I anticipate that there will be significant donations 
either of fee or of interest in the land, such as easements and 
things of that kind. This permits the Secretary, functioning 
through the Director of Fish and Wildlife, as I have suggested 
the amendments to the Committee, to offer some assurance to a 
donor or a seller that there will not be a penalty associated 
with that act of virtue, because as you know, Mr. Chairman, not 
infrequently, as they say, no good deed goes unpunished, and it 
is our purpose with that particular drafting to see to it that 
we not penalize honest citizens who are seeking to work with us 
in this conservation cause.
    The authority to use this is entirely discretionary with 
the Secretary or the President or the Director of Fish and 
Wildlife, and I am even suggesting to the Committee certain 
sensible constraints which the Secretary could use, such as 
considering the relative value of the donation or the sale and 
also considering the cost to the government and the potential 
liabilities absorbed by the government in the acceptance of the 
land, either by sale or donation.
    Mr. Gilchrest. Thank you very much, Mr. Dingell.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    Just following up on the issue of Section 7, and I thank 
Mr. Dingell for clarification, does this change your position, 
Mr. Ashe, of that amendment as put in, that it somehow--would 
it change the administration's position that the discretion is 
given to the Secretary via the Director of Fish and Wildlife as 
opposed to the President?
    Mr. Ashe. Mr. Underwood, I guess when we sit down with the 
Committee, I know that the changes that Mr. Dingell has 
suggested, we have looked at them within the Fish and Wildlife 
Service and they certainly do address some of our concerns 
about Section 7. I guess we would need to sit down with the 
Committee and with the administration to determine whether or 
not that remedies the larger concern.
    I think the larger concern is one of a conceptual level, at 
a policy level, and as I said in my statement, and Congressman 
Dingell is correct, the grant of authority is discretionary in 
the bill, and so certainly the administration or the Fish and 
Wildlife Service is not required to exercise that authority. 
Sometimes, though, the presence of discretion is not a good 
thing and--
    Mr. Underwood. I am sure he will be interested to hear 
that.
    Mr. Ashe. --and the presence of discretion--if Congress 
puts a provision into law and gives us the discretion to employ 
it, then presumably they intend us to use it and we will find 
ourselves under pressure to employ the exemption because--and 
again, we have not taken a detailed look at any of these 
properties--
    Mr. Underwood. But there are two levels of discretion here, 
are there not? The first is whether to accept the property and 
the second is whether to indemnify.
    Mr. Ashe. That is correct.
    Mr. Underwood. Okay. So there are two levels. I would 
assume that that offers some protection if the property is very 
much contaminated.
    Mr. Ashe. It does.
    Mr. Underwood. But I appreciate the administration's 
concerns on that, as well.
    For the rest of the panel, Mr. Gilchrest, the Chairman, 
asked the initial question, how much of this property--what 
would the total property be in the refuge, and then some of you 
proceeded to answer it by talking about various corporate 
holdings along the whole area. Can anyone offer any information 
about what would be anticipated to actually be donated to the 
Fish and Wildlife Service for the refuse? How much of that 
property is actually held by corporations and how much is 
actually held by individuals? Has anyone studied that, or is 
most of the anticipated property that would be given over is 
held by corporations?
    Mr. Hartig. I don't think anyone has studied that in depth. 
I think the number of parcels ultimately that might be given to 
the Fish and Wildlife Service might be relatively small, but I 
think a number of the corporations would manage their lands 
under the--consistently with the goals of an international 
wildlife refuge and the conservation vision, to meet the spirit 
and intent of that. So they might have a cooperative agreement 
in the end to do certain things voluntarily on their property 
to support the wildlife refuge concept.
    Mr. Underwood. So has anyone kind of assessed how much 
would actually be covered by cooperative agreements as opposed 
to land being given over? I mean, I am assuming that Section 7 
applies primarily to land that is being donated, and so I just 
want to find out for my understanding of the whole situation, 
how much land is anticipated would be actually given over and 
could be potentially covered by Section 7? Does anyone have any 
information on that?
    [No response.]
    Mr. Underwood. No? Okay. Let me try another question. If 
Section 7 were absent in this legislation, what do you think 
the reaction of the corporations that currently hold land? 
Would they be as interested in donating land? I mean, is this 
critical to the possibilities? Maybe Mr. Jakcsy or Dr. Hartig 
would respond to that. Since I guess, Mr. Jakcsy, you 
represent--you don't represent the whole corporate community, 
obviously, but you are the only corporate representative.
    Mr. Jakcsy. I think that where there are pockets or for 
pieces of land that would be suitable for inclusion in a 
refuge, I think whether Section 7 is included or not, say if it 
is not, I think obviously you would be more readily inclined to 
look at making those donations, making them available or having 
easements on those lands for refuge. With Section 7, I can't 
speak for the other corporations, but I think there is a 
realization that perhaps those properties that may be a little 
more questionable, they would probably be held on by the 
corporations and not offered for realistic consideration and it 
would not become an issue. So it is those properties that are 
out there and available that could be given.
    Mr. Underwood. Didn't National Steel just turn over Mud 
Island?
    Mr. Jakcsy. Yes, we did. In that instance--
    Mr. Underwood. What conditions were placed on that, or were 
there any activities there other than rum-running, as pointed 
out by Mr. Dingell?
    [Laughter.]
    Mr. Jakcsy. We had acquired Mud Island back in 1945 and it 
had been expanded through--the acreage had been expanded 
through some dredging of the Detroit River until it is now a 
21-acre site, and that happened in the early 1960's. And we 
never did anything with the island. We left it in its natural 
habitat, and as a result, it was just a beautiful spot, a 
little jewel, we like to think of it, there off the shores of 
Ecorse, that was available, unused, and we felt this was the 
ideal fit for it in terms of being in a refuge.
    So I think those kinds of parcels that have not been used 
by companies along the waterfront become--and are not going to 
be used in future plans for companies--they become an ideal 
fit, because as a member of the business community with the 
Southern Wayne County Chamber of Commerce, I know the spirit of 
the corporations on the river is to make the downriver a more 
attractive place to live and work and improve quality of life, 
which we have identified through our economic summits in the 
Down River Community on the value of the river. And I think 
where we can make these parcels available for the refuge, there 
is a keen interest to do that.
    Mr. Underwood. Go ahead, Dr. Hartig.
    Mr. Hartig. May I give you two practical examples that we 
are working on right now with different industries along the 
Detroit River. There are two downfield sites and what they are 
looking at right now is there is a real key player in this and 
that is the State of Michigan, the Michigan Department of 
Environmental Quality, which is a regulatory agency, and in 
both these cases, all applicable State standards have to be 
met. That is--the State is adamant about that. The communities 
where these two parcels exist in want that, as well.
    Having Section 7 in there, though, is an incentive for 
these corporations to grant the easement that we want to do 
some creative work on the shoreline. In both of these parcels, 
they are looking at granting an easement down to the water 
along the Detroit River and to view some of the wildlife areas. 
So it is very much an access to the river, as well, providing 
public access, like Congressman Dingell said, to appreciate the 
river, to benefit from it, as well.
    In both cases, the final resolution will be that the State 
standards will be met for those parcels and they will then move 
forward with some habitat work, some easement for public 
access, as well.
    Mr. Underwood. Yes, go ahead.
    Ms. Taylor. What I was going to add, also, regardless of 7 
being in or out, and I can't speak for all conservation 
organizations, but I think we are quite similar, that when we 
acquire any lands, and often in a refuge status we are 
acquiring them as an intermediate owner and then passing them 
on to the refuge status, we do baseline environmental 
assessments. We have to go through many filters of assessment 
of that ownership for liability purposes, and so we would still 
do those things regardless.
    I think what a lot that results from Section 7 is the 
incentive, as John said, to make that easier and to create an 
opportunity to encourage those companies to do so. But 
regardless, we are going to go through those same process.
    What also I want to point out is that often in brownfields 
properties, having worked in brownfields policy in a previous 
life, much of that is a perception of contamination of these 
sites. So with incentives like that, we still go through the 
same rigors of assessment, yet many times these are not in the 
condition that people anticipate because of the historical 
industrial use of them. And, in fact, you need opportunities 
like this to create an incentive to move forward.
    But all those same questions, we would go through before 
ownership, so--
    Mr. Underwood. I think I am generally in agreement with 
that point. I congratulate the effort of Mr. Dingell to, in a 
sense, not give up on this area simply because it has had a lot 
of industrial activity, and we are trying to find the right 
language in here in order to make it possible, in order to make 
the refuge possible. I think almost all of us are on the same 
page on that issue. It is not a question of trying to give the 
business community a leg up or to be indemnified for any damage 
they may do to the community. I think we are just trying to 
find the right language to make it possible. It is a remarkable 
project in its conceptualization simply because of the fact 
that so much industrial activity has occurred here over a 
couple of centuries.
    Mr. Hartig. I think that is a very, very important point, 
because we are the heart of the industrial revolution. We are 
the Rust Belt, as they call us. And in the midst of major 
industry, we are going to have potentially an international 
wildlife refuge and how can that come about at a practical 
working level? I think Congressman Dingell is really at the 
cutting edge of this for the whole country and North America 
and this could be a model for the rest of the country and for 
Canada on how to do that in an industrial area. It is just an 
unbelievable opportunity and some incentives will be helpful 
along the way.
    Mr. Underwood. Yes, sir?
    Mr. Tori. I guess I could refer back to Helen Taylor's 
great example about the car. The Detroit River is a car that is 
limping along. We have taken out a lot of the parts and each 
one of our organizations--Ducks Unlimited, Pheasants Forever, 
and all the other folks represented here--we are the mechanics 
and we need to put this car back together. The folks here and 
the folks that support this refuge are willing to work on it, 
and the creation of this refuge is a really important tool to 
put this car together and get it up and running for the rest of 
the country to see. So we appreciate the support of it.
    Mr. Underwood. The car analogy is appropriate, I guess, to 
this area, but after listening to Pheasants Forever and Ducks 
Unlimited, I was waiting for Sturgeon Survival or some other 
organization to come forward.
    [Laughter.]
    Mr. Underwood. I want to commend you all for your 
testimony. I was just wondering if any of you know of any 
creatures that live in the Black Lagoon when I look in this 
map.
    [Laughter.]
    Mr. Underwood. Thank you, Mr. Chairman. I couldn't resist 
that.
    Mr. Gilchrest. Maybe that is where we can put the brown 
tree snakes.
    Just a quick follow-up question to Mr. Ashe. Are there any 
other refuges in the U.S. similar to the proposed one we are 
looking at here today, where a lot of the land is not 
contiguous and in an industrial area, urban area, or is this 
fairly unique?
    Mr. Ashe. We have refuges where we have lands which are not 
contiguous. We have many examples of refuges in--and we have--a 
good analogy for the Committee to look at would be the Silvio 
Conte Refuge in Connecticut, Vermont, New Hampshire, 
Massachusetts, where we have a very long corridor of river, 
hundreds of miles in that case, where we are working to 
preserve small components of the original river system. This 
is, of course, much smaller in terms of linear miles, but the 
same concept. The Conte River does include some urban areas, as 
well.
    We have urban refuges in other parts of the country, so 
this is a combination. This really is a unique approach to 
creation of a refuge that combines different concepts that we 
employ in other parts of the country.
    Mr. Gilchrest. So the Silvio Conte Refuge System, you have 
a number of States that are cooperating in preserving and 
restoring that particular habitat?
    Mr. Ashe. Correct.
    Mr. Gilchrest. And in this situation, you have Canada and 
the United States.
    Mr. Ashe. Right.
    Mr. Gilchrest. When this becomes a reality, the management 
of these pieces that make up the refuge, you mentioned earlier 
that it would probably take six full-time staff, and I am sure 
there would just be a number of volunteers on this project, as 
there are in other areas around the country. The six full-time 
staff, what kind of relationship would the six full-time staff 
on the U.S. side have with the number of Canadian staff I 
assume that they would put on their side? Would it be managed 
as a single ecosystem, do you foresee?
    Mr. Ashe. Of course, I guess that relationship remains for 
us to work out with the government of Canada. You asked about 
land acquisition earlier. We don't have any authority to do 
land acquisition or even to bring lands in another country into 
the refuge system. So Canada would have to make a commitment to 
the conservation of the lands over which it has jurisdiction. 
We would bring our lands and our resources to the effort. So we 
would have to develop a cooperative agreement with the 
government of Canada and a cooperative approach to management 
of our lands jointly. So it would obviously be an effort that 
would entail a great degree of cooperation. It sounds like that 
level of cooperation is already there and well underway. So it 
doesn't sound to me like it would be difficult for us to do.
    Mr. Gilchrest. Just very quickly, your perspective, would 
Section 7, Mr. Ashe, be a disincentive for acquiring future 
lands?
    Mr. Ashe. I think in some respects, Mr. Gilchrest, it could 
make negotiations difficult for us. I think the entire panel is 
correct. All of the mechanisms still are in place for us. We 
would do contaminant surveys, and I think in this case, because 
the government would be absorbing liability, in the case that 
we exercised this authority, the government would be the single 
liable party. And so we would have to take a very long and hard 
look at whether we wanted to exercise that authority.
    In many cases, it would probably be cheaper for us--
potentially would be cheaper for us to just buy the land and 
not absorb the liability associated with it. But as Mr. Dingell 
said, the bill actually asks us to make that--or his suggested 
changes to the bill ask us to make that judgment, which would 
be a proper judgment for us to make.
    So it would be complicated and it, in some regards, might--
well, I just think it might complicate negotiations between us 
and a potential donor if they saw a large benefit or advantage 
to them in transferring liability for cleanup to the Federal 
Government.
    Mr. Gilchrest. I think, given the nature of this project 
and given the kind of information that we now have, let us say, 
as opposed to 10 years ago, I think we are up for it. I think 
we have the capacity to deal with it.
    Mr. Ashe. I appreciate your confidence.
    Mr. Gilchrest. Yes, sir. Dr. Hartig, did you want to make a 
comment?
    Mr. Hartig. Yes, maybe one other comment. The State of 
Michigan is also an owner of substantial property within the 
proposed refuge area. For example, Pointe Mouillee State Game 
Area is about 2,000 acres that is managed by the State on the 
lower left-hand corner.
    Another one is Stony Island. Gildo, could you point that 
out, please, for us on the map? Stony Island was recently 
purchased with Michigan Natural Resource Trust Fund dollars by 
the State of Michigan and managed in perpetuity.
    And you can see where there would be these cooperative 
agreements amongst Fish and Wildlife Service, the State, and 
other partners to manage it under the umbrella of the refuge. 
So much of this is underway.
    I would like to point out that Congressman Dingell 
convened, or helped convene a State of the Strait conference 
recently. Destrois is the strait, and that was a binational 
conference where we brought together all the management 
agencies and concerned citizens. Over 300 people came together 
to sort of look at where we have come from, where we are, where 
we need to go, and the wildlife refuge concept was very much 
out in front there.
    A joint management conference convened on an annual basis 
to coordinate, to integrate and move forward together would be 
a good starting point for this. It might lead to a cooperative 
agreement. But there are mechanisms that Congressman Dingell 
has already established to lay the foundation for this really 
important concept.
    Mr. Gilchrest. It sounds like it is something we can move 
forward with. Mr. Ashe?
    Mr. Ashe. Mr. Gilchrest, I guess I would just say, I do 
believe personally that we can, from the standpoint of the Fish 
and Wildlife Service, that we can work through our concerns 
with respect to Section 7. Mr. Dingell and his staff have 
already been responsive to some of our concerns in suggesting 
their changes to the bill. I do believe that we can resolve 
that. There may be some larger policy issues within the context 
of the administration that need to be worked out with respect 
to the liability. Other agencies have an interest in this 
issue, EPA and the Justice Department and others, that will 
need to work on it. I do believe that, from our perspective, we 
can negotiate in good faith and work out our concerns.
    I think from the standpoint of the Committee and your 
responsibility for the refuge system, if we absorb liability 
within the refuge system, and as you know, we learn things 
every day about contaminants and about how the environment 
works, and particularly with respect to contamination, it is 
very difficult for us to look forward ten to 15 years and 
foresee things that might arise. And once we are the owner of 
land, and if the previous owner has been absolved from 
liability, then we would be responsible for any cleanup or 
remediation that is necessary, and those dollars would come 
from within our operational budget.
    Mr. Gilchrest. I understand, and there is a certain amount 
of legitimate fear that goes along with that. We will see if we 
can work through that. Maybe there can be a voluntary corporate 
ecosystem restoration potential contamination fund that is put 
off to the side, and as employees leave work every day, they 
can drop a few quarters in there to help the refuge system.
    [Laughter.]
    Mr. Gilchrest. Ms. Taylor, I just want to make a comment 
that in your likely doing this, the protection you offer here 
as a result of your purchases, probably you are looking to 
where these migrating waterfowl are coming from and then where 
they are going to after they leave the Detroit River and sort 
of do the same kind of things in those places that you are 
doing right there in the Detroit River.
    Ms. Taylor. You are asking if we are? Yes, very much so. 
There are--we have an initiative called Wings of America which 
looks at the migratory path of birds from North to South 
America, where we are trying to recognize and learn more about 
not only nesting and breeding locations at the southern reach 
and the northern reach of these creatures, but also their 
stopover sites and we are learning much more about what we once 
thought might be an insignificant, small piece of forest that 
maybe isn't large enough to be considered viable, et cetera, 
yet these small places are critical to the stopover sites that 
these creatures need from north to south.
    So we are trying to think globally about these issues and 
then also deploy--and that is why many of our staff are in 
other countries, because we are trying to make a linkage 
between our activities and a place like Detroit corridor to the 
north and to the south, and we do that through other 
conservation partners. So yes, we very much are trying to 
stitch that together. Otherwise, we lose in the bigger picture 
if we only do this one place.
    Mr. Gilchrest. Thank you very much.
    I want to thank all the witnesses for their testimony and 
their contribution to this effort and Mr. Dingell for providing 
the vehicle upon which all of this will be a success. 
Basically, you are all just dismissed. I have to say something 
into the microphone for the hearing, but again, thank you all 
very much.
    I ask unanimous consent that the following documents be 
included in the hearing record. These are letters and 
resolutions in support of H.R. 1230 by Governor John Engler of 
Michigan; the Michigan Department of Natural Resources; Ms. 
Susan Whelan, a member of the House of Commons in Canada; Mr. 
Peter Stroh, Chairman, Greater Detroit American Heritage River 
Initiative; and many others. We will submit this document to 
the record.
    Mr. Gilchrest. The hearing is now adjourned.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]

    The following information was submitted for the record. 
Additional materials have been retained in the Committee's 
official files.

    1. LBagale, Edward J., Vice Chancellor for Government 
Relations, The University of Michigan-Dearborn, Statement 
submitted for the record
    2. LFront, Alan, Senior Vice President, The Trust for 
Public Land, Statement submitted for the record
    3. LCool, K.L., Director, Department of Natural Resources, 
Lansing, Michigan, Letter submitted for the record
    4. LEngler, Hon. John, Governor, State of Michigan, Letter 
submitted for the record
    5. LGoodheart, Jim, Executive Director, Michigan United 
Conservation Clubs, Memorandum submitted for the record
    6. LMap of Lower Detroit River Ecosystem
    7. LStroh, Peter W., Chairman, Greater Detroit American 
Heritage River Initiative, Letter submitted for the record
    8. LWhelan, Susan, Member of Parliament, Essex, House of 
Commons, Ottawa, Canada, Letter submitted for the record

     Statement of Edward J. Bagale, Vice Chancellor for Government 
             Relations, The University of Michigan-Dearborn

    Mr. Chairman, I am submitting this testimony in support of House 
Resolution 1230. As Vice Chancellor for Government Relations at the 
University of Michigan-Dearborn, I have spent many years working with 
broad-based community coalitions that are committed to environmental 
restoration and preservation, quality ecologically based recreation, 
and economic development. In that capacity, I serve as co-chair of 
Rouge River Gateway Partnership and am past president of the Automobile 
National Heritage Area. The University of Michigan-Dearborn and the 
aforementioned partnerships each consider it an important part of their 
mission to help promote and inculcate environmental awareness and the 
responsibilities of stewardship into each generation throughout the 
region we serve. These are values that are exemplified in H.R. 1230.
    The University of Michigan-Dearborn is located on the banks of the 
historic Rouge River, one of the major watersheds flowing into the 
Detroit River. The Rouge River was once one of the worst sources of 
pollution in the Detroit River and the Great Lakes basin. But thanks to 
the commitment of the 48 communities within the watershed, hundreds of 
public and private institutions and thousands citizens, the Rouge River 
has become a national model for environmental reclamation. In the 
future, the Rouge watershed will be recognized for the contributions of 
its residents to historic preservation, habitat restoration, and 
industrial revitalization.
    One of the important lessons that we have learned is that rivers 
and watersheds are important ways to define communities. These natural 
geographical features transcend political jurisdictions and encompass 
an enormous range of social and economic diversity. They connect us to 
our past, and they are linked to our future.
    Of course, not everything connected to the environmental 
reclamation agenda for the Rouge River and the Detroit River is good 
news. The sad fact is that we have already lost over 95% of the coastal 
wetland habitats in Detroit River ecosystem. This is habitat that is 
critical to hundreds of species of birds, butterflies, and fish. Many 
of these species would naturally migrate into the Detroit River's 
tributaries, such as the Rouge River. But unless something is done 
immediately, the people of Detroit and Windsor run the risk of losing 
the remaining habitat along the Detroit River. This would reverberate 
throughout the watersheds feeding the Detroit River and be a tragedy 
for many millions of people on both sides of the border.
    H.R. 1230 provides an effective strategy for preserving wildlife 
refuge in the Detroit River. It is also an important mechanism for 
forging a shared vision for conservation, restoration, and management 
of fish and wildlife habitats in both the United States and in Canada.
    The citizens of Dearborn, Detroit, the communities downriver, and 
indeed in towns and townships extending throughout three watersheds are 
making incredible personal and financial sacrifices to clean up the 
water in their communities. We are rapidly moving forward toward full 
compliance with the Clean Water Act. We are integrating solid 
principles of environmental stewardship into the curricula of 
elementary, secondary and higher education institutions. Volunteers and 
professionals together are carefully monitoring the primary indices of 
environmental health. We believe we deserve the support of government 
in preserving these ecological treasures for future generations. 
Support of H.R. 1230 is an important step in achieving this important 
objective. I join with thousands of educators, public officials and 
residents throughout the regions served by the University of Michigan-
Dearborn. We are united in our support of H.R. 1230. And we are 
committed to continuing to provide stewardship over the environmental 
resources entrusted to us.
    Thank you for the opportunity to submit this testimony for the 
record.
                                 ______
                                 

 Statement of Alan Front, Senior Vice President, The Trust for Public 
                                  Land

    Mr. Chairman, I appreciate the opportunity to offer the strong 
support of the Trust for Public Land for H.R. 1230 and the new Detroit 
River National Wildlife Refuge it will authorize, and to urge you to 
guide this important legislation to the timely enactment it deserves.
    The Trust for Public Land (TPL) is a national nonprofit 
organization that works with private landowners, public agencies, 
community leaders, and other partners to conserve landscapes with 
compelling natural, recreational, cultural, and other resource values. 
Since its founding in 1972, TPL has assisted in over 2,000 willing-
seller public acquisitions involving well over a million acres of 
resource lands. From this on-the-ground perspective, I would like to 
share with the Committee my organization's clear, experience-born 
understanding that
    <bullet> Lthe proposed Detroit River refuge is comprised of unique, 
and uniquely threatened, wetlands that rank in importance alongside the 
critical areas Congress previously has authorized for U.S. Fish & 
Wildlife Service stewardship;
    <bullet> Lthe moment is at hand to conserve these lands or to lose 
this opportunity forever; and
    <bullet> Lthe bill you are considering today, owing to Congressman 
Dingell's careful craftsmanship, is the best mechanism for meeting 
community and ecological needs, and of promoting the public/private 
partnerships in Michigan and internationally that will be needed to 
safeguard this vital area.
    The resource values of Detroit River are diverse and compelling. 
The river corridor is home to some 65 fish species, including a huge 
annual spawning walleye fishery of international renown; dozens of 
waterfowl species that together comprise a migratory population of over 
three million ducks and geese; and over 150 nesting bird species in 
all. A key to the wildlife importance of Detroit River, which flows 
through the meeting-place of the Atlantic and Central Flyways, is its 
location. Since this 18-mile stretch of river flows through an area of 
substantial urbanization, location also is a central factor in its 
history and continuing importance as a major commercial and 
transportation corridor. And by extension, this urban location--and 
this urban land-use pattern--also have played a major role in the 
resource threat that makes passage of this legislation so vital.
    Over 95 percent of the historic riverine wetlands along the Detroit 
River have been lost to development, floodwall construction, and other 
physical constraints to tidal flows and meanders that once nourished 
this wetland ecosystem. Yet the remainder of the corridor--the river 
islands, marshlands and pocket wetlands that punctuate the stretches of 
commercial and other structures along the river--provide exceptional 
habitat for diverse wildlife in extraordinary numbers. Especially given 
the degree of habitat conversion and loss, these undeveloped remnants 
of the river's past are all the more important to sustain the area's 
resident and migratory wildlife populations. On the other hand, 
restoration of many of these sites is critical to maintain and enhance 
their natural values. And especially given the continued pressure for 
additional development, permanent protection of these parcels is the 
only true means of staving off additional construction and stemming the 
area's egregious habitat losses.
    H.R. 1230 as introduced by Congressman Dingell is a carefully 
balanced approach, a helping hand rather than an iron fist, to address 
these restoration and land protection needs. Like other legislation 
approved by this Committee, the bill authorizes acquisition of refuge 
lands for public management and stewardship. But the Detroit River 
International Wildlife Refuge Act also includes a variety of provisions 
specific to the needs of this unique place: provisions that are 
generating remarkable partnership support locally, and internationally. 
With regard to land acquisition, the bill explicitly focuses on 
charitable land donations and willing-seller purchases, ensuring that 
all landowner participation will be by choice. It maintains an emphasis 
on historic public use by sportsmen and outdoor enthusiasts. It offers 
mechanisms for voluntary habitat management agreements between the Fish 
& Wildlife Service and its private neighbors. And with respect to a 
huge and enormously important public neighbor, it provides for 
coordination with Canadian authorities on cooperative approaches to 
habitat improvement between their side of the river, where conservation 
already has begun, and our own.
    The Trust for Public Land has been working with many of the 
potential willing sellers and donors of wetland properties, ranging 
from pristine habitat lands to degraded but restorable habitat 
enhancement opportunities. Through this work, we have seen the 
groundswell of community support for this conservation proposal. We can 
assure the Committee that there is a large, representative sample of 
Detroit River landowners who are working with TPL to design 
conservation strategies for their properties in ways consistent with 
and inspired by this legislation. And we can assure you of our 
steadfast support of this visionary bill, which will make a habitat 
conservation solution possible for each of these landowners.
    We look forward to working with you toward enactment of H.R. 1230, 
and to the remarkable cooperative model for conservation it will allow 
on the Detroit River.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.011
                                 
                                 [GRAPHIC] [TIFF OMITTED] T3261.012
                                 
                                   - 

</pre></body></html>
